<html>
<title> - BOKO HARAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
            BOKO HARAM--EMERGING THREAT TO THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 30, 2011

                               __________

                           Serial No. 112-60

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/





                  U.S. GOVERNMENT PRINTING OFFICE
74-645                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dbbcabb49bb8aea8afb3beb7abf5b8b4b6f5">[email&#160;protected]</a>  
                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                 Patrick Meehan, Pennsylvania, Chairman
Paul C. Broun, Georgia, Vice Chair   Jackie Speier, California
Chip Cravaack, Minnesota             Loretta Sanchez, California
Joe Walsh, Illinois                  Brian Higgins, New York
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Kevin Gundersen, Staff Director
                    Alan Carroll, Subcommittee Clerk
              Stephen Vina, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Jackie Speier, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence..............................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     4

                               Witnesses

Mr. J. Peter Pham, Director, Michael S. Ansari Africa Center, 
  Atlantic Council of the United States:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Ms. Lauren Ploch, Africa Analyst, Congressional Research Service:
  Oral Statement.................................................    14
  Prepared Statement.............................................    17
Mr. Ricardo Rene Laremont, Professor of Political Science and 
  Sociology, Binghamton University, State University of New York:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
Ms. Jennifer G. Cooke, Director, Africa Program, Center for 
  Strategic and International Studies:
  Oral Statement.................................................    28
  Prepared Statement.............................................    29


            BOKO HARAM--EMERGING THREAT TO THE UNITED STATES

                              ----------                              


                      Wednesday, November 30, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 311, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Quayle, Speier, Hochul, 
and Thompson (ex officio).
    Mr. Meehan. The Committee on Homeland Security Subcommittee 
on Counterterrorism and Intelligence will come to order. The 
subcommittee is meeting today to hear the testimony regarding 
an emerging threat to the homeland from Boko Haram, a Nigerian 
Islamist group. I would like to welcome everyone to today's 
hearing. The hearing coincides with the release of the 
bipartisan subcommittee report* outlining the emerging threat 
to the U.S. homeland from Boko Haram. I would like to thank the 
Ranking Member for her willingness to work together in a 
bipartisan fashion to call attention to this issue.
---------------------------------------------------------------------------
    * The document is available at www.gpo.gov/fdsys/pkg/CPRT-
112HPRT71725/pdf/CPRT-112HPRT71725.pdf.
---------------------------------------------------------------------------
    I believe we worked to create a document that will continue 
to contribute to the public conversation about Boko Haram, and 
will add a valuable perspective to the debate.
    In late August, a suicide bomber drove a VBIED, vehicle-
borne IED into the United Nations headquarters in Abuja, 
Nigeria, killing 23, and injuring over 80. A sect based in 
northern Nigeria, Boko Haram, claimed responsibility for the 
attack. The attack on the U.N. headquarters represented a 
marked shift by Boko Haram, highlighted by targeting its first 
non-Nigerian entity, and using a suicide bomber, which are 
hallmarks of al-Qaeda and its affiliates.
    It would appear to be, in hindsight, to be a bit of 
foreshadowing, one week before the U.N. attack, U.S. Army 
General Carter Ham, who is the commander of the African Command 
United States, stated publicly that Boko Haram had an intent to 
coordinate and synchronize their efforts with AQIM and Al-
Shabaab. Based on the U.N. attacks, General Ham's assessment 
seems to have been accurate. The U.S. intelligence community 
must not underestimate Boko Haram's intent and capability to 
strike at U.S. interests, and most importantly, potentially the 
U.S. homeland. Its fast evolution in targeting and tactics 
mirrors other al-Qaeda-affiliated groups, and it is worrisome.
    While I recognize, and this is important to say, while I 
recognize there is little evidence at this moment to suggest 
that Boko Haram is planning attacks against the homeland, lack 
of evidence does not mean it cannot happen.
    As our report makes clear, the U.S. intelligence community 
has very recently been wrong about al-Qaeda affiliates' intent 
and their capability to strike the homeland with nearly deadly 
consequences. The most notable examples include AQAP and TTP, 
whose threats to attack the homeland were both assessed to be 
aspirational until they deployed suicide bombers to Detroit on 
Christmas day 2009, and Times Square in May 2010, and caught us 
entirely off guard. Due to the fast evolution of Boko Haram in 
the last year, the U.S. intelligence community must increase 
intelligence collection on Boko Haram and enhance cooperation 
with our Nigerian partners to build their counterterrorism and 
intelligence capacity. This subcommittee has held many hearings 
this year on multiple terrorist threats, including from AQAP in 
Yemen, the different groups operating in Pakistan, including 
TTP, and Hezbollah in Latin America.
    One thing that I know I have taken away from these hearings 
and from the many classified briefings we regularly receive is 
that we underestimate emerging terrorist groups at our peril. I 
keep harking back to the language in the 9/11 report about the 
failure of imagination. I think one of the responsibilities of 
this committee is to be the imagination of Congress with 
respect to the challenges we face on the terrorism front.
    The case of the Iranian terrorist plot in the District of 
Columbia is a perfect example. Everyone had assessed they would 
never strike in the homeland unless the United States or Israel 
were attacked or had attacked their nuclear facilities. This 
has proven to be wrong. It is one example that points to the 
larger issue, which is we must remain vigilant. In the case of 
today's hearing, we must remain vigilant in countering Boko 
Haram. I look forward to hearing from today's witnesses.
    The Chairman now recognizes the Ranking Minority Member of 
the committee, the gentlewoman from California, Ms. Speier, for 
any statement she may have.
    Ms. Speier. Thank you, Mr. Chairman. Thank you for holding 
today's hearing on the Nigerian terrorist organization, Boko 
Haram, and the threat the group may pose to the United States. 
I would also like to welcome our witnesses today, and look 
forward to gaining insights from each of you, and to learn more 
about how we can partner with the Nigerians to help combat 
terrorism. Boko Haram, a terrorist organization based in 
northern Nigeria, has been drawing increased attention by 
conducting a campaign of violence against the Nigerian 
Government, and in an apparent and possibly game-changing 
escalation, a recent attack against the U.N. headquarters in 
the Nigerian capital.
    The group has apparently continued to expand their target 
set. On November 5, the U.S. Embassy in Abuja issued an 
emergency message to all U.S. citizens in Nigeria that Boko 
Haram was planning to attack western hotels in Abuja. Boko 
Haram has expanded their capabilities and operations rapidly. 
But, in part, due to their rapid rise, very little is known 
about the group, and little international attention has been 
focused on it. That is why I am pleased to join Chairman Meehan 
today in releasing a report on Boko Haram. This report pulls 
together the disparate pieces of open source media available on 
the group in order to present the fullest picture yet of the 
threat posed by Boko Haram, including whether or not it has the 
intent and capability to attack the United States, and options 
for U.S. engagement and assistance to the Nigerian Government 
to counter this threat. Hopefully, this report and our 
discussion today can raise awareness of an evolving terrorist 
organization whose list of targets has now expanded to include 
the international community and could include the United States 
homeland.
    What makes Boko Haram particularly concerning is how 
quickly it has grown over the past few years from a local 
militia to a more complex terror organization which earlier 
this month carried out a series of coordinated suicide bombings 
in several cities across the country, killing dozens of people. 
Boko Haram has been able to expand its reach from a traditional 
northeast power base southward to the capital Abuja, and 
reportedly even further south. The most notable example of Boko 
Haram's evolving capabilities and ambitions is the suicide car 
bomb attack which the Chairman alluded to earlier. The attack 
signaled a willingness on the part of Boko Haram to attack 
international targets, and may signify a shift towards a more 
global militant ideology. Perhaps the most troubling aspect of 
the threat posed by Boko Haram is the reports of increasing 
ties between the group and other terrorist groups, including 
AQIM in North Africa and Al-Shabaab in Somalia.
    The reported commingling of weapons, tactics, and personnel 
among these groups may be one reason that Boko Haram has 
reportedly been able to quickly develop its bomb-making 
expertise and tactics. There is still too much we don't know 
about Boko Haram, including its membership strength, its 
leadership cadre, and the true nature of its ties to other 
terrorist organizations. We must learn more about Boko Haram so 
that we do not underestimate the threat they may pose, as has 
happened in the past with other terrorist groups such as AQAP 
and Al-Shabaab. The subcommittee calls for the U.S. Government 
to increase information sharing with the Nigerian government 
and outreach with the Nigerian people, particularly the Muslims 
in the north, to better understand the underlying factors 
contributing to such extremism and the appeal of a group like 
Boko Haram.
    This is a prudent tactic. But until we can learn more about 
this group, their intentions to strike the United States, and 
the extent and the exact nature of their cooperation with other 
terror groups on the continent, we must be cautious with 
proceeding towards any major new commitments in Nigeria. I do 
not believe this hearing should telegraph a desire for the 
United States' engagement in another international theater. 
Rather, our report and hearing today should serve as a solid 
starting point to raise awareness of a potential new threat and 
spur further discussion and examination to build an effective 
strategy for dealing with Boko Haram. Once again, I want to 
thank the witnesses for being with us today, and I look forward 
to your testimony. I yield back.
    Mr. Meehan. Thank you, Ranking Member Speier. We are 
pleased to have the Ranking Minority Member from the entire 
committee, the gentleman from Mississippi, Mr. Thompson. At 
this point in time, I would like to recognize him for any 
opening statement that he may like to make.
    Mr. Thompson. Thank you very much, Mr. Chairman, and 
Ranking Member, both, for holding this hearing. I also would 
like to thank our witnesses for their testimony also. Today, we 
are here to examine whether the Nigerian group known as Boko 
Haram poses a threat to the United States. This is a difficult 
question because we have a very limited amount of information 
about Boko Haram. We know that the group has ties to al-Qaeda. 
We also know that Boko Haram capabilities have increased. But 
we do not know the size, organizational structure, agenda, or 
resources at this point. While we do not know much about this 
group, we do know a great deal about Nigeria.
    With 158 million people, Nigeria is the eighth most 
populous country in the world. About one-half of Nigerians 
practice Islam, and about 40 percent of Nigerians are under 14 
years of age. Currently, Nigeria is experiencing its longest 
period of civilian rule since its independence. In many ways, 
Nigeria is a young democracy. In 2008, the civilian authorities 
in this oil-rich country began pursuing economic reforms. But 
as we know, the path of change is not easy. Every Nation has 
found that the road forward is often riddled with the remnants 
of the past, the stumbling blocks of the present, and the 
distracting dreams of the future. We also know that those who 
benefit from the status quo will resist change. These universal 
truths are alive and well in Nigeria also. It is clear that 
Boko Haram, with its unknown number of followers and unclear 
agenda, has become a source of strife. The military, which 
formerly ruled this country, has been clear about their 
concerns. But the Nigerian people have expressed a desire to 
move forward. As part of its effort to reach out in January 
2010, Nigeria assumed a non-permanent seat on the United 
Nations Security Council for the 2010-2011 session.
    In August 2011, Boko Haram set off a suicide bomb at the 
United Nations headquarters in Nigeria. Some see this U.N. 
attack as an attack on western interests. However, given 
Nigeria's prior position on the Security Council, the meaning 
of this attack is far from clear. For many years, some of my 
friends on the other side of the aisle have supported defunding 
the United Nations because they claimed that the United Nations 
did not support the United States' interests. Now we are 
claiming that an attack on a United Nations building in Nigeria 
is an attack on United States' interests. I guess things 
change. However, what does not change is our need for clear and 
certain information before we commit to a position.
    At this point, we cannot answer the question: Is Boko Haram 
capable of striking the United States or any other of its 
interests? To find the answer to this question, we need to work 
with the Nigerian government to increase the intelligence 
capabilities in their country. We also need to reach out to the 
vast Nigerian community in this country and seek their help and 
guidance. We must not paint Nigeria as a nation of terrorists. 
Our message goes well beyond these walls, and our message today 
should be that we need to learn more. With that, Mr. Chairman, 
I yield back.
    Mr. Meehan. Thank you, Ranking Member Thompson. Now, the 
other committee Members are reminded that opening statements 
may be submitted for the record. We are pleased to have as well 
a very distinguished panel of witnesses before us today on this 
important topic. I will go through and introduce each of you, 
and then we will ask each of you individually to present your 
testimony.
    So let me first give the biography of Dr. Peter Pham. He is 
the director of the Michael Ansari Africa Center. Dr. Pham was 
previously senior Vice President of the National Committee on 
American Foreign Policy, and editor of the bimonthly journal 
American Foreign Policy Interests. He was also a tenured 
associate professor of justice studies, political science, and 
Africana studies at James Madison University in Harrisburg, 
Virginia, where he was director of the Nelson Institute for 
International and Public Affairs. He has served on the senior 
advisory group of the U.S. Africa Command since its creation. 
Dr. Pham served as a member of the USAID-funded International 
Republican Institute delegation monitoring the national 
elections in Liberia in 2005. He has also served on the IRI 
pre-election assessment and election observation delegations to 
Nigeria and Somaliland.
    We are joined by Ms. Lauren Ploch, a specialist in African 
affairs with Congressional Research Service--did I get that 
right, Ploch--where she provides nonpartisan analysis on 
African political, military, diplomatic affairs, and U.S. 
policy in the region to Members of the United States Congress, 
to the Congressional committees, and to the Congressional 
staff. She has written extensively on security issues and U.S. 
military engagement on the continent, and has testified before 
Congress on these topics. Her work has focused extensively on 
Nigerian political and security developments. Ms. Ploch speaks 
regularly at academic institutions and international policy 
fora in the United States and abroad. Prior to joining CRS, Ms. 
Ploch managed democracy support initiatives in east and 
southern Africa, where she coordinated governance programs 
funded by USAID, the State Department, and the National 
Endowment for Democracy. Previously, she served as a 
legislative assistant in the United States Senate.
    Dr. Ricardo Laremont joins us today. He is a professor of 
political science and sociology at the State University of New 
York Binghamton, and a Carnegie Corporation Scholar on Islam. 
He has a J.D. from New York University Law School and a Ph.D. 
from Yale University. His principal books include Islamic Law 
and Politics in Northern Nigeria, Islam and Politics of 
Resistance in Algeria, the Causes of War and Consequences of 
Peacekeeping in Africa; Borders, Nationalism, and the African 
State, and the forthcoming Revolution, Revolt, and Reform in 
North Africa and the Middle East. His research focuses upon 
political Islam, Islamic law, conflict resolution, 
democratization, and civil-military relations, usually in the 
region of North Africa and the Sahel.
    Last, Ms. Jennifer Cooke, director of the CSIS Africa 
Program, which she joined in 2000. She works on a range of 
U.S.-Africa policy issues, including security, health, 
conflict, and democratization. She has written numerous 
reports, articles, and commentary for a range of U.S. and 
international publications. Previously, she worked on the House 
Foreign Affairs Committee Subcommittee on Africa, as well as 
the National Academy of Sciences, with its offices of news and 
public information, and its committee on human rights.
    Thanks, each and every one of you, not only for your 
presence here today, but I know for the extensive work you put 
into the preparation of your testimony. I know many of you had 
extensive written testimony, which I enjoyed the ability to 
review. We are a little limited in our time, so I know that you 
will focus on the essence of what you think is at the heart of 
your testimony. So I open it and ask you, Dr. Pham, to begin, 
and ask you to do your best to keep within the confines of our 
unfortunate 5-minute limitations. But thank you, Dr. Pham.

STATEMENT OF J. PETER PHAM, DIRECTOR, MICHAEL S. ANSARI AFRICA 
         CENTER, ATLANTIC COUNCIL OF THE UNITED STATES

    Mr. Pham. Thank you, Mr. Chairman. Mr. Chairman, Ranking 
Member Speier, distinguished Members of the subcommittee, I 
would like to thank you for the opportunity to testify today on 
the extremist sect, Boko Haram, examining not only the threat 
that it currently represents to Nigeria, but its potential 
impact on the West African subregion and the international 
community at large, especially the United States. Since other 
witnesses testifying today are better positioned to address 
questions relating to administration policy and actions to date 
on this issue, I will concentrate on just highlighting five key 
points which I believe the United States and other responsible 
international actors should bear in mind in assessing Boko 
Haram and the threat posed by it, as well as in determining 
adequate immediate responses to this challenge and planning for 
longer-term engagement with the Sahel region in order to 
counter the scourge of violence and extremism.
    The emergence of Boko Haram cannot be understood without 
reference to the social, religious, economic, and political 
milieu of Northern Nigeria. The name Boko Haram is itself 
derived from the combination of the Hausa word for book, as in 
book learning, boko, and the Arabic term ``haram,'' which 
designates those things which are religiously forbidden as 
ungodly or sinful. Thus Boko Haram is not only a name, but a 
slogan to the effect that western education and such products 
that arise from it are sacrilege.
    Such a profound alienation is, alas, not unprecedented. The 
parallels, for example, with the Maitatsine uprisings of the 
early 1980s, which left thousands of dead, and cut a path of 
destruction across five northern Nigerian states are, to say 
the least, quite uncanny. Certainly there are comparisons to be 
drawn between Boko Haram and the earlier movement in terms of 
ideology, objectives, and modus operandi. Both can be described 
as fanatical sects whose beliefs are distinguishable from the 
religious orthodoxy of the majority of Nigerian Muslims. Both, 
in their rejection of western civilization, eventually also 
came to reject the legitimacy of the Nigerian state itself, 
viewing it as evil and unworthy of allegiance, and ending up 
waging war against it. While there is nearly a three-decade gap 
between the earlier movements and Boko Haram, that passage of 
time has only seen the worsening of socioeconomic conditions in 
northern Nigeria with respect to economic stagnation, lack of 
educational opportunity, corruption, and political 
marginalization, all of which serves to swell the ranks of the 
ignorant, destitute, and disillusioned, who are easy recruits 
for movements promising a radical transformation of Nigerian 
society.
    Second, far from being destroyed following the repression 
of its 2009 uprising, Boko Haram has undergone a dramatic 
transformation. In retrospect, the first sign of this was the 
al-Jazeera interview given by Abdelmalek Droukdel, the emir of 
al-Qaeda in the Islamic Maghreb in June 2010. The head of al-
Qaeda's North African franchise stated that his group would 
provide Boko Haram with weapons, training, and other support in 
order to expand its own reach into sub-Saharan Africa.
    At the time, that claim was widely dismissed both because 
Droukdel was known for his outsized ambitions and because he 
was having internal difficulties at the time within his own 
group. Shortly afterward, Abubakar Shekau, the new head of Boko 
Haram, appeared in a video released by AQIM's media arm, the 
first time AQIM has been known to have allowed this outlet to 
be used by an outsider. In that video, he threatened attacks 
not only against Nigeria, but also against ``outposts of 
western culture'' in that country.
    The following month, he published a manifesto in which he 
linked the jihad being fought by Boko Haram with jihadist 
efforts globally. Then as you yourself, Mr. Chairman, have 
already highlighted, in June 2011, Boko Haram launched its 
first suicide attack using a VBIED. The attack, which targeted 
the inspector general of the Nigerian police force, is believed 
to be the first suicide attack to take place in Nigeria. This 
incident, and the August 26 attack on the offices of the United 
Nations in Nigeria, underscored that far from being a spent 
force, Boko Haram has not only adopted, but indeed mastered one 
of the deadliest instruments in the jihadist arsenal. These 
attacks in the Nigerian capital also demonstrate that the 
militant group is now capable of carrying out operations far 
from its usual area of operation.
    Third, while one should be cautious about asserting 
connections between different terrorist organizations and 
militant groups, one should also be wary of biases introduced 
into threat analysis by arbitrary distinctions and 
classifications which do little justice to fluid realities. A 
good case in point is the Sahel, the belt connecting North 
Africa and West Africa and straddling ancient trade and 
migration routes from Mauritania on the Atlantic Ocean to 
Somalia on the Indian Ocean. This region is strategically 
important for several reasons, including its role as a bridge 
between the Arab and Berber Maghreb and black sub-Saharan 
Africa as well as its important natural resources. Moreover, 
the Sahel belt touches upon several countries with serious 
security challenges of their own, which could or can or have 
easily spilled over their borders. The Sahel also shelters a 
variety of armed groups, ranging from al-Qaeda's regional 
franchise to the Polisario separatists, to Somali pirate 
syndicates, all very different ground groups, but very capable 
of opportunistic cooperation for their nefarious ends. Today, 
the Sahara and the Sahel form a single space of movement, which 
for purposes of the geography of terrorism should be considered 
as a continuum, something that the territorial approach to 
states and geopolitics often prevents us from understanding.
    Fourth, an alliance with Boko Haram is a very attractive 
option for any number of outside groups. Al-Qaeda in the 
Islamic Maghreb, for example, has never hidden its ambition to 
bring in the Islamists of Nigeria and exploiting the sectarian 
strife and conflict in that West African nation. Nor, given the 
operational pragmatism as shown in recent years would AQIM 
necessarily be put off by the more questionably orthodox 
aspects of its potential Nigerian partners. One should also 
keep in mind that the successful establishment or acquisition 
of an active affiliate in sub-Saharan Africa has been a goal of 
al-Qaeda for some time.
    More than 5 years ago, for example, Sada al-Jihad, the 
magazine of what later evolved into al-Qaeda in the Arabian 
Peninsula, published a lengthy article on al-Qaeda's moving to 
Africa, in which the author was quite up-front about the agenda 
for Africa. Finally, it would be useful to recall why Nigeria 
is so important, both in its own right and for U.S. interests, 
a strategic significance that goes beyond the country's 
acknowledged importance as our fourth-largest source of 
petroleum imports. The fact that Boko Haram, Mr. Chairman, has 
been able in recent months to expand its operations beyond its 
base in northern Nigeria and to make a significant qualitative 
leap in its tactical capabilities ought to be a wake-up call to 
both the Nigerian government and the international community.
    Certainly, the suicide bombings targeting symbols of 
Nigerian state authority and the international community 
represent a major advance in Boko Haram's capabilities and a 
significant shift in its messaging. The effect was not only to 
discredit the efforts of some Nigerian officials to trivialize 
the group as an insignificant local problem, but also to call 
into question the assumptions of security analysts outside 
Nigeria who have long minimized the risks faced by Nigeria and 
by the international community, including the United States.
    Mr. Chairman, Members of the subcommittee, I thank you for 
your attention, and look forward to your questions.
    [The statement of Mr. Pham follows:]

                  Prepared Statement of J. Peter Pham
                           November 30, 2011

    I would like to thank you very much for the opportunity to testify 
today on the extremist militant sect Boko Haram, examining not only the 
threat that it currently poses to Nigeria, but also its potential 
impact on the West African subregion and the international community at 
large, especially the United States.

                      THE EMERGENCE OF BOKO HARAM

    While Boko Haram first received widespread attention for the armed 
attacks it launched against police stations and other public buildings 
in the towns of Geidam and Kanamma in Nigeria's northeastern Yobe State 
on Christmas Eve 2003, the emergence of the militant sect cannot be 
understood without reference to the social, religious, economic, and 
political milieu of northern Nigeria.
    Nigerian sources differ in their accounts of the precise origins of 
the group, but most agree on the parallels with--if not direct 
connection in terms of individuals linked to--the Maitatsine\1\ 
uprisings of the early 1980s which left thousands dead and a cut a path 
of destruction across five northern Nigerian states. Certainly there 
are comparisons to be drawn between Boko Haram and the earlier movement 
in terms of ideology, objectives, and modus operandi. Both the Yan 
Tatsine and Boko Haram can be described fanatical sects whose beliefs 
are distinguishable from the religious orthodoxy of the majority of 
Nigerian Muslims. Both, in their rejection of Western civilization, 
eventually also came to reject the legitimacy of the secular Nigerian 
state, invariably described as dagut (``evil'') and unworthy of 
allegiance, and ended up waging war against it in an effort to bring it 
down, to be replaced by a ``purified'' Islamic regime. In both cases, 
police were unable to quell the outbreak of violence and military 
forces had to be deployed. And while there is nearly a three-decade gap 
between the Yan Tatsine and Boko Haram, that passage of time has only 
seen the worsening of socioeconomic conditions of northern Nigeria with 
respect to economic stagnation, lack of educational, corruption, and 
political marginalization--all of which serves to swell the ranks of 
the ignorant, destitute, and disillusioned who are easy recruits for 
movements promising a radical transformation of Nigerian society.
---------------------------------------------------------------------------
    \1\ The Maitatsine movement took its name from a religious 
preacher, Muhammadu Marwa, who moved from his native Cameroon to 
northern Nigeria around 1945. His polemical sermons, ostensibly based 
on the Quran and aimed at both religious and political authorities, 
earned Marwa the sobriquet by which he was generally known, 
``Maitatsine'' (in the Hausa lingua franca of northern Nigeria, ``he 
who curses''), as well as the ire of the British colonial authorities 
who had him deported. Maitatsine eventually returned to Nigeria 
sometime after its independence and, by the early 1970s, had gathered a 
large and increasingly militant following, the ``Yan Tatsine'' 
(``followers of Maitatsine''), drawing heavily from youth, unemployed 
migrants, and others who felt that the official Islamic hierarchy was 
unresponsive to their needs. Maitatsine proclaimed himself a prophet 
and became increasingly anti-government in his pronouncements. He was 
killed by security forces during a December 1980 insurrection in Kano, 
but his followers rose up again in 1982, 1984, and 1985. See J. Peter 
Pham, ``In Nigeria False Prophets are Real Problems,'' World Defense 
Review, October 19, 2006, http://worlddefensereview.com/
pham101906.shtml.
---------------------------------------------------------------------------
    The name Boko Haram is itself derived from the combination of the 
Hausa word for ``book'' (as in ``book learning''), boko, and the Arabic 
term haram, which designates those things which are religiously 
forbidden as ungodly or sinful. Thus ``Boko Haram'' is not only a 
proper name, but also a slogan to the effect that ``Western education 
(and such product that arises from it) is sacrilege.'' More recently, 
the group's spokesmen have adopted the Arabic name Jama'atu Ahlis Sunna 
Lidda'awati wal-Jihad (``group committed to the teachings [of the 
Prophet], preaching, and jihad'').
    After its late 2003 attacks were repelled, Boko Haram followers 
regrouped at a base on the border with Niger which they dubbed 
``Afghanistan'' where, in 2004, they were joined by students from 
various local universities who withdrew from school and joined the sect 
for Quranic instructions. Later that year, Boko Haram members attacked 
police stations in Borno State, killing several policemen and stealing 
arms and ammunition. The police counterattacked the group and killed 
two dozen members. This set pattern for the next few years with Boko 
Haram members carrying out occasional assaults on police, who responded 
with raids and arrests.
    One of these isolated skirmishes, a security raid on a Boko Haram 
hideout in Bauchi State in late July 2009, however, led to reprisal 
attacks on police and subsequently 5 days of rioting which spread 
across Bauchi, Kano, Yobe, and Borno. The violence was finally petered 
out after Boko Haram's leader, Ustaz Mohammed Yusuf was captured and 
killed--supposedly while attempting to escape--but not before more than 
700 people were killed and numerous public buildings, including 
government offices, police stations, schools, and churches were 
destroyed.
    With its leaders as well as several prominent financial backers, 
including Alhaji Buji Foi, a former commissioner for religious affairs 
in the state government of Borno, dead, the group receded from public 
attention and a number of analysts argued that it was either finished 
or hopelessly fractured.

                         BOKO HARAM SINCE 2010

    Far from being dead, however, the group had undergone a dramatic 
transformation. In retrospect, the first sign of this was a June 14, 
2010, al-Jazeera interview given by Abu Musab Abdel Wadoud, a.k.a. 
Abdelmalek Droukdel, the emir of al-Qaeda in the Islamic Maghreb 
(AQIM). The head of al-Qaeda's North African franchise stated that his 
group would provide Boko Haram with weapons, training, and other 
support in order to expand its own reach into Sub-Saharan Africa. At 
the time, this claim was widely dismissed, both because Droukdel was 
known for outsized ambitions and because he was having internal 
difficulties at that time with the more dynamic southern commanders 
within his own group.\2\
---------------------------------------------------------------------------
    \2\ See ibid, ``Foreign Influences and Shifting Horizons: The 
Ongoing Evolution of al Qaeda in the Islamic Maghreb,'' Orbis 55, no. 2 
(Spring 2011): 240-254.
---------------------------------------------------------------------------
    Shortly afterward, Mohammed Yusuf's former deputy, Abubakar bin 
Muhammad Shekau, who was thought to have been killed in the suppression 
of the previous year's uprising, surfaced in a video that might best be 
described as ``classic al-Qaeda.'' Wearing a headdress and framed by an 
AK-47 and a stack of religious books, Shekau proclaimed himself the new 
head of Boko Haram and promised vengeance for the casualties suffered 
the year before. Significantly, he threatened attacks not only against 
the Nigerian state, but also against ``outposts of Western culture'' in 
the country. The following month, Shekau published a manifesto in which 
he linked the jihad being fought by Boko Haram in Nigeria with the 
jihadist efforts globally, especially that of ``the soldiers of Allah 
in the Islamic State of Iraq.''
    Two months later, on September 7, 2010, Boko Haram fighters 
dramatically broke into a Federal prison in Bauchi and freed more than 
100 of their fellow members who had been detained there awaiting trial 
since the previous year's uprising. In the process of the assault, 
involving bombs and automatic weapons, the militants also let out more 
than 750 other prisoners and scattered leaflets warning of further 
violence.
    The latter was not long delayed. On Christmas Eve 2010, the group 
set off a string of 7 improvised explosive devices (IEDs) in Jos, 
Plateau State. The bombings, which targeted the town's Christian 
communities, left 32 people dead and scores of others wounded. While 
the group subsequently carried out a number of other attacks--mainly 
small IEDs thrown from moving vehicles or planted near the target, 
although there was also the occasional prison break--it was only at the 
middle of this year when it achieved what should be considered a very 
significant and ominous tactical and operational upgrade in its 
capabilities.
    On June 16, 2011, Boko Haram launched its first suicide attack 
using a vehicle-borne improvised explosive device (VBIED). The attack, 
believed to also be the first suicide attack to take place in Nigeria, 
targeted the Inspector General of the Nigerian Police Force (NPF), 
whose convoy the terrorist followed into the Louise Edet House 
headquarters compound of the NPF in the Federal capital of Abuja. While 
the target escaped harm because security detained the suspect vehicle, 
the explosion was large enough to nonetheless destroy several dozen 
police vehicles parked nearby. In fact, the incident showed that far 
from being a spent force, Boko Haram had adopted and, indeed, mastered 
one of the deadliest instruments in the jihadist arsenal. Moreover, it 
also demonstrated that the militant group was now capable of carrying 
out operations far from its usual areas of operation.
    Two months later, on August 26--after having spent the interim 
carrying out a half-dozen smaller attacks on government officials, 
establishments that served alcohol, and churches--Boko Haram carried 
out another major attack, sending another suicide bomber with an 
explosive-laden car to the offices of the United Nations in Abuja. 
Twenty-one people were killed and at least 70 were wounded in what UN 
Secretary-General Ban Ki-moon characterized as an ``assault on those 
who devote themselves to helping others.'' This attack, the first by 
the group against a transnational target, put it in the ranks with 
jihadist terrorists who have targeted U.N. agencies in places 
Afghanistan, Iraq, and Algeria.
    Earlier this month, on November 5, the U.S. Embassy in Nigeria 
issued a warning, indicating that it had received intelligence that 
Boko Haram was planning bomb attacks against several targets in the 
Nigerian capital in conjunction with the Muslim feast of sacrifice, Eid 
al-Adha. The warning specifically singled out as possible targets were 
the Hilton, Nicon Luxury, and Sheraton hotels. While the holiday passed 
without any terrorist incidents in Abuja, Boko Haram did strike at 
multiple targets in three northern cities, including a security 
tribunal in Damaturu and a military base in Maiduguri, killing more 
than 100 people in the process. Two of the attacks reportedly involved 
VBIEDs.
    Just this past weekend, Boko Haram militants armed with automatic 
weapons and explosives attacked several targets in Yobe State, 
including a police station and a bank in Geidam, the same town where 
the group first burst upon the scene with its Christmas Eve assaults 8 
years ago.

                             EXTERNAL LINKS

    While one should be cautious about asserting connections between 
different terrorist organizations and other militant groups in the 
absence of credible evidence, one should also be wary of biases 
introduced into the threat analysis by arbitrary distinctions and 
classifications which do little justice to more fluid realities. A good 
case in point is the Sahel, the belt connecting North Africa and West 
Africa and straddling ancient trade and migration routes from 
Mauritania on the Atlantic Ocean to Somalia on the Indian Ocean. The 
region is strategically important for several reasons, including its 
role as a bridge between the Arab (and Berber) Maghreb and black Sub-
Saharan Africa as well as its important natural resources, both 
renewable and nonrenewable. Moreover, the Sahel belt touches several 
countries--including Algeria, Nigeria, and Sudan--with serious security 
challenges of their own that could easily spill over their borders. In 
fact, a number of scholars have argued that the Sahara and the Sahel 
form ``a single space of movement'' which, for purposes of the 
geography of terrorism, ``should be considered as a continuum, 
something that the territorial approach of states and geopolitics 
prevents us from understanding.''\3\
---------------------------------------------------------------------------
    \3\ Olivier Walther and Denis Retaille, ``Sahara or Sahel? The 
Fuzzy Geography of Terrorism in West Africa'' (working paper, CEPS/
INSTEAD, Luxembourg, November 2010), 11.
---------------------------------------------------------------------------
    That being said, there are some tantalizing linkages between Boko 
Haram and other militant movements. The former has clearly absorbed 
what many regard as a signature tactic of some of the latter, the use 
of VBIEDs in repeated attacks against high-profile public targets, 
resulting if not in a significant increase in the number of operations, 
certainly a potentially spectacular increase in the casualties 
resulting from each, especially in cases where the bombs are deployed 
in near-simultaneous or otherwise coordinated attacks. At the very 
least, the existence at all of suicide attacks indicates a level of 
foreign ideological influence since they practically unknown in Africa, 
even during the height of the Algerian civil war which left hundreds of 
thousands dead or wounded, until more recent years when they were 
legitimized by ideologues close to al-Qaeda and became increasingly 
commonplace in AQIM's repertoire.
    AQIM itself has had a discrete number of Nigerian recruits since 
Algerian Groupe Salafiste pour la Predication et le Combat (GSPC, 
``Salafist Group for Preaching and Combat'') was rebranded as al-
Qaeda's franchise in the region, a fact acknowledged as Abdelmalek 
Droukdel acknowledged as far back as 2008 when he gave an extensive 
interview to the New York Times. And the group has never hidden its 
ambition to bring in the Islamists of Nigeria in particular, exploiting 
the sectarian strife and conflict between Muslims and Christians in the 
West African nation. Nor, given the operational pragmatism it has 
evinced in recent years, would AQIM necessarily be put off by the more 
questionably orthodox aspects of the lives or beliefs of its potential 
Nigerian partners.\4\
---------------------------------------------------------------------------
    \4\ See J. Peter Pham, ``The Dangerous `Pragmatism' of Al-Qaeda in 
the Islamic Maghreb,'' Journal of the Middle East and Africa 2, no. 1 
(January-June 2011): 15-29.
---------------------------------------------------------------------------
    It is noteworthy, in fact, that both AQIM and Boko Haram leaders 
have issued statements complimenting each other and pledging mutual 
support. Tellingly, AQIM has permitted the Nigerian group's Abubakar 
Shekau to employ its media operation, al-Andalus, to spread messages.
    Furthermore, there is the question of the role currently being 
played within the movement by the Chadian-born Mamman Nur, formerly 
third-highest-ranking figure in Boko Haram's leadership after Mohammed 
Yusuf and Abubakar Shekau. After Boko Haram members dispersed in the 
aftermath of the government crackdown in 2009, Nur is believed to have 
gone to Somalia, where he and his followers trained in camps within 
territory controlled by the insurgents of the Harakat al-Shabaab al-
Mujahideen (``Movement of Warrior Youth,'' al-Shabaab) and forged links 
with transnational jihadist networks. He returned to Nigeria earlier 
this year and is alleged by Nigerian authorities, who placed a 25 
million naira ($175,000) bounty on his head, to have masterminded the 
attack on the U.N. building in Abuja in August. One should also keep in 
mind that the successful establishment or acquisition of an active 
affiliate in Sub-Saharan Africa has been a goal of al-Qaeda for some 
time.\5\ In June 2006, for example, Sada al-Jihad (``Echo of Jihad''), 
the magazine of what was then al-Qaeda in Saudi Arabia--which later 
evolved into al-Qaeda in the Arabian Peninsula (AQAP)--published a 
lengthy article by one Abu Azzam al-Ansari entitled ``Al-Qaeda is 
moving to Africa.'' The author of the article was quite up-front about 
the jihadist agenda for Africa: ``There is no doubt that al-Qaeda and 
the holy warriors appreciate the significance of the African regions 
for the military campaigns against the Crusaders. Many people sense 
that this continent has not yet found its proper and expected role and 
the next stages of the conflict will see Africa as the battlefield.''
---------------------------------------------------------------------------
    \5\ See ibid, ``Next Front? Evolving U.S.-African Strategic 
Relations in the `War on Terrorism' and Beyond,'' Comparative Strategy 
26, no. 1 (2007): 39-54.
---------------------------------------------------------------------------
    With analytical precision, Abu Azzam then proceeded to enumerate 
and evaluate what he perceives to be significant advantages to shifting 
terrorist operations to Africa, including: The fact that jihadist 
doctrines have already been spread in many African countries; the 
political and military weakness of African governments; the easy 
availability of a wide range of weapons; the geographical position of 
Africa vis-a-vis international trade routes; the proximity to old 
conflicts against ``Jews and Crusaders'' in the Middle East as well as 
emergent ones like Darfur, which is explicitly mentioned; the poverty 
of Africa ``will enable the holy warriors to provide some finance and 
welfare, thus, posting there some of their influential operatives''; 
the technical and scientific skills that potential African recruits 
would bring; the presence of large Muslim communities, including ones 
in conflict with Christians or other Muslims; the links to Europe 
through North Africa ``which facilitates the move from there to carry 
out attacks''; and the fact that Africa has a wealth of natural 
resources, including hydrocarbons and other raw materials, which are 
``very useful for the holy warriors in the intermediate and long 
term.'' What Abu Azzam wrote about Africa in general could very well be 
interpreted to point to Nigeria in particular.
    In short, while conclusive evidence is not available--at least in 
on open-source basis--of connections between Boko Haram and other 
extremist networks, there is sufficient plausible basis to warrant the 
commitment of greater resources to examining the possibilities as well 
as enhancing our understanding the overall geopolitical and socio-
cultural dynamics of the Sahel.

                            POSSIBLE IMPACT

    It might be useful to recall why Nigeria is so important, both in 
its own right and for U.S. strategic interests. With proven petroleum 
reserves conservatively estimated to amount to some 36 billion 
barrels--the largest in Sub-Saharan Africa and the tenth-largest in the 
world--Nigeria is America's fourth-largest supplier of oil imports. 
Last year, the United States imported an average of 1,025,000 barrels 
of oil per day from the West African country, according to the 
Department of Energy's Energy Information Administration (by 
comparison, an average of 2,532,000, 1,280,000, and 1,094,000 barrels 
per day were imported from Canada, Mexico, and Saudi Arabia, 
respectively). Nigerian output and, consequently, exports to the United 
States, would have been considerably greater if insurgents and criminal 
gangs in the oil-rich Niger Delta did not routinely disrupt operations 
and cause oil companies to declare force majeure and suspend 
production. Moreover, Nigeria's export blends tend to be the light or 
``sweet'' crudes preferred by U.S. refiners as a gasoline feedstock 
because they are largely free of sulfur, unlike the heavy, high-sulfur 
oils hailing from Caribbean or Persian Gulf sources.
    Nigeria's significance to American interests goes beyond its 
acknowledged importance as an energy supplier. Nigeria's population of 
just shy of 150 million people makes it the eighth-most populous 
country in the world and by far the most populous in Africa. 
Historically, the country has played a major role in resolving the 
conflicts besetting the continent and has long been the largest African 
contributor to United Nations peacekeeping operations. Currently, 5,622 
Nigerian military and police personnel are deployed in seven United 
Nations operations in Africa--the U.N. Mission for the Referendum in 
Western Sahara (MINURSO), the U.N. Organization Stabilization Mission 
in the Democratic Republic of the Congo (MONUSCO), the African Union/
U.N. Hybrid Operation in Darfur (UNAMID), the U.N. Interim Security 
Force for Abyei (UNISFA), the U.N. Mission in Liberia (UNMIL), the U.N. 
Mission in South Sudan (UNMISS), and the U.N. Operation in Cote 
d'Ivoire (UNOCI)--in addition to those working with blue-helmeted 
forces in places as far away as Haiti, Lebanon, and Timor L'Este. Given 
that America's willingness to undertake such assignments is rather 
limited even if U.S. forces were not themselves stretched, the value of 
such a reliable regional partner should not be underestimated. As 
President Obama emphasized in his meeting last year with Nigeria's 
President Goodluck Jonathan, ``a strong, democratic, prosperous Nigeria 
is in the U.S. National interest.''
    Thus there should be considerable concern that a country of such 
geopolitical importance should find itself threatened by a terrorist 
group like Boko Haram, which has for its mission the bringing down of 
the Nigerian state itself. And the concern should be magnified in the 
face of the somewhat lackadaisical attitude of Nigerian senior Nigerian 
officials to the challenge they are confronted with. The late President 
Umaru Musa Yar'Adua left for a state visit to Brazil right in the 
middle of the 2009 uprising and, only upon his return, set up a 
commission of inquiry headed by the then-National Security Adviser, 
retired Major General Abdullahi Sarki Mukhtar. That panel never 
formally published its findings into the death of Boko Haram's leader 
and its work was eventually superseded by another commission appointed 
by President Goodluck Jonathan. Moreover, worse than the less-than-
fully-committed reactive capacity are the instances of actual 
complicity with the militants. As with the post-electoral violence 
across northern Nigeria earlier this year following what was arguably 
the best-run elections in the country's history, there have been no 
shortage of politicians willing to exploit religious and other divides 
in the furtherance of their own ambitions. Just last Tuesday, a sitting 
federal senator from the ruling People's Democratic Party (PDP), 
Mohammed Ali Ndume of Borno State, was arrested for his ties to Boko 
Haram.
    While, at least for the moment, the threat which Boko Haram might 
pose to oil and natural gas producing areas in the southeastern Niger 
Delta and off the Nigerian coast in the Gulf of Guinea is minimal--
distance aside, ethnic differences between the Hausa-Fulani of the 
north and the Yoruba, Igbo, Ijaw, and other peoples of southern Nigeria 
represent not insignificant hurdles for Boko Haram militants aspiring 
to operate there--it should be recalled that less than a year ago quite 
a number of Nigerian and international analysts assured themselves that 
the group could not project power as far as the Federal Capital 
Territory. Furthermore, it should not be so quickly forgotten that it 
was just a few years ago, between 2006 and 2009, that local militant 
groups like the Movement for the Emancipation of the Niger Delta 
(MEND), which were poorly armed and trained in comparison with Boko 
Haram, succeeded in slashing Nigeria's oil production from 2.6 million 
barrels a day to as low as around 1 million barrels a day.
    There is also reason to be concerned about U.S. and other 
expatriate persons and business interests in Nigeria and the threat to 
them posed by Boko Haram. On May 12, 2011, for example, two engineers--
a Briton and an Italian--employed by B. Stabilini, an Italian 
construction firm that was building a branch office of the Central Bank 
of Nigeria in Birnin Kebbi, the capital of Kebbi state in northwestern 
Nigeria on the border with Niger and Benin, and were seized by armed 
attackers from their company apartment. A ransom video delivered to a 
news agency subsequently claimed that the two men were being held by 
AQIM. The suspicion is that Boko Haram or groups linked to it, either 
in imitation of or in collaboration with AQIM, were actually 
responsible for the operation and the claim of responsibility for AQIM 
was an attempt to exploit the latter group's fearsome ``brand name'' in 
the Sahelian kidnapping-for-ransom racket.
    The Nigerian response to all of this has fluctuated between 
attempts to minimize threat perception to ham-fisted security 
operations like the ``Operation Flush'' security sweeps in the 
northwestern part of the country which have further inflamed public 
opinion against the government. While Nigeria is an important partner 
on the global stage--one that aspires to an even more prominent role 
within the international community--its friends, including the United 
States, would do well to help it see the importance of getting its 
house in order first. This entails not only improving its political, 
legal, and security responses to terrorist threats, but also attending 
to multiple fault lines--religious, ethnic, regional, economic, and 
political--which criss-cross Nigerian society.

                               CONCLUSION

    All indications are that Boko Haram's support networks, both within 
Nigeria and outside the country, are still somewhat limited. 
Nevertheless, the fact that the group has been able in recent months to 
expand its operations beyond its base in northern Nigeria ought to be a 
wake-up call to both the Nigerian government and the international 
community. Certainly the suicide bombings targeting symbols of Nigerian 
state authority and the international community represented a major 
advance in Boko Haram's capabilities and a significant shift in its 
message. The effect was not only to discredit the hitherto efforts of 
Nigerian officials to trivialize the group as an insignificant 
localized problem--rather than the direct challenge to the state that 
it constitutes--but also to call into question the assumptions of 
security analysts abroad who have long minimized the risks faced by a 
Nigeria whose vast natural and political resources, rather than 
powering growth and development to the benefit of all Nigerians, have 
sadly for most of the last half century been consumed in a downward 
spiral of corruption, internal conflict, and violence.
    Moreover, the recent attacks, when coupled with developments 
elsewhere in the Sahel, are a vivid reminder that extremism and 
violence cannot easily be contained by arbitrary divisions, whether on 
maps or in analytical frameworks. Consequently, the emergence of Boko 
Haram and its burgeoning capacity for violence ought to be seized upon 
by the United States and its partners as opportunity to more closely 
examine, better understand, and be more proactively engaged in 
confronting common challenges and advancing geopolitical, economic, and 
other strategic interests in this very dynamic and fluid region.\6\
---------------------------------------------------------------------------
    \6\ See ibid, ``U.S. Interests in Promoting Security across the 
Sahara,'' American Foreign Policy Interests 32, no. 4 (July-August 
2010): 242-252.

    Mr. Meehan. Thank you for your testimony, Dr. Pham.
    Ms. Ploch.

   STATEMENT OF LAUREN PLOCH, AFRICA ANALYST, CONGRESSIONAL 
                        RESEARCH SERVICE

    Ms. Ploch. Mr. Chairman, Ranking Member Speier, and 
distinguished Members of the House Subcommittee----
    Mr. Meehan. You may not have hit your microphone.
    Ms. Ploch. I did not. Thank you. I will start again. Mr. 
Chairman, Ranking Member Speier, and distinguished Members of 
the House Subcommittee, thank you for inviting CRS to testify 
today regarding the threat posed by Boko Haram. My written 
statement provides details about Boko Haram's origins and 
recent operations, so I will save you the time and summarize my 
statement.
    In the interests of time, I am going to summarize the 
information and identify key issues facing the U.S. Government 
and the United States Congress. Boko Haram emerged as a small 
radical Sunni Islamist sect that advocated a strict 
interpretation of Islamic law for Nigeria. While the group's 
name refers to--while the group refers to itself by a longer 
name in Arabic, local communities gave the group the nickname 
Boko Haram to describe its view that western education and 
culture have been corrupting influences in Nigeria.
    Until this year, the Nigerian government appears to have 
primarily considered Boko Haram to be merely a nuisance, 
particularly in comparison to the militant groups operating in 
the Niger Delta region, where Nigeria's oil is produced. Boko 
Haram responded in 2009 to a security crackdown by fading away 
and surging back in force late last year. In the course of that 
violence, the group's leader, Mohammed Yusuf, was killed in 
police custody. As this graph indicates, which has been 
compiled by CRS from open sources, the group's attacks have 
increased significantly in the last year both in frequency, 
reach, and lethality, now occurring almost daily in northeast 
Nigeria. These attacks now periodically also reach as far as 
Abuja, the capital city, which is located in the center of 
Nigeria.
    The group is primarily focused on State and Federal 
targets, but has also targeted civilians in churches, mosques, 
and in beer halls. The apparent aim of these attacks is to 
discredit and delegitimize the Nigerian state by exposing the 
weakness of its security apparatus and by creating generalized 
insecurity. According to Human Rights Watch, more than 425 
people have been victims of attacks attributed to Boko Haram. 
While Boko Haram has remained primarily focused on a domestic 
agenda, there are some indications that some of its members may 
be expanding ties with more developed violent Islamist groups 
in Africa, particularly the regional al-Qaeda affiliate AQIM. 
Attacks attributed to the group since 2010 have increasingly 
featured improvised explosive devices, or IEDs, car bombs, and 
more recently, suicide attacks.
    The targeting of the U.N. building by a suicide bomber on 
August 24 marks a major departure from the group's previous 
focus on domestic targets. Spokesmen for the group claim the 
attack was retribution for the state's heavy-handed security 
response against its members, and they have referenced U.S. and 
international collaboration with Nigerian security forces as a 
rationale for targeting the United Nations. The bombing may 
indicate an aspiration by some in Boko Haram to move beyond 
local politics toward an international jihadist agenda, or it 
may be part of an effort to elicit backing from international 
jihadists for the group's domestic agenda.
    By most accounts, Boko Haram is not a monolithic 
organization. In fact, it appears increasingly diffuse. Its 
cells appear to operate largely autonomously, under state or 
regional level leadership. According to U.S. Government 
sources, the core group of Boko Haram militants may number in 
the hundreds, but the group may also draw support from a 
broader following of several thousand Nigerians, primarily from 
the northeast. Some observers have suggested that the attacks 
attributed to Boko Haram may actually be the work of several 
different groups, including criminal gangs. Others suggest that 
Boko Haram may be susceptible to fracturing, with a segment of 
the leadership working to build ties with the international al-
Qaeda franchise, while most other elements of the group remain 
focused exclusively on a local agenda.
    I want to highlight some of the key questions facing the 
administration and Congress with regard to this complex 
challenge. First, is Boko Haram a threat to the U.S. homeland 
and to U.S. interests in Nigeria? As you note, this is a 
complicated question. Earlier this year, and prior to the U.N. 
bombing, the Director of National Intelligence testified that 
Boko Haram appeared to remain largely focused on domestic 
issues. But he also suggested that Boko Haram may be pursuing 
interests it shares with AQIM. U.S. intelligence officials 
continue to warn that despite al-Qaeda's reportedly degraded 
capacity to carry out attacks against the United States, its 
sympathizers and affiliated groups still pose a significant 
threat. As CRS has noted, AQIM continues to pose the main 
transnational terrorist threat in North Africa and the Sahel. 
But to date, none of its actions indicate a clear threat to the 
U.S. homeland. The group does, however, continue to threaten 
U.S. and western targets in Algeria and the Sahel. If it were 
to work together with Boko Haram, the two groups could expand 
their operational reach.
    AQIM and Boko Haram officials, as my colleague, Dr. Pham, 
has noted, they have both referenced growing ties in their 
public statements. Although many observers suggest that their 
relationship has been more aspirational than operational, U.S. 
officials report that contact between members of the groups is 
increasingly frequent. If reports of AQIM providing weapons, 
personnel, and training are accurate, they warrant increased 
vigilance. Some analysts caution, however, that the group's 
relationships may still be fairly limited in scope, and that a 
nominal link between Boko Haram and AQIM may be mutually 
beneficial to both groups. Publicly linking the two may serve 
to enhance Boko Haram's credentials among radicals to 
facilitate both recruitment and financial support. My 
counterparts are probably also going to discuss in their 
testimony the possibility that Boko Haram or AQIM may try to 
acquire weapons systems from former Libyan stockpiles, 
including surface-to-air missiles, which, according to some 
reports, may be flowing south through Niger. Nigeria is one of 
only a handful of West African countries to which the U.S. 
airlines like Delta may fly directly from the United States. So 
this is of concern. President Goodluck Jonathan, Nigeria's 
president--excuse me, sorry, I skipped a page. My apologies.
    What is the basis of Boko Haram's appeal among Nigerians? 
The expansion of groups like Boko Haram in northern Nigeria has 
raised concerns that other Nigerians may be susceptible to 
recruitment by al-Qaeda or to groups hoping to use violence 
against international targets in Nigeria or abroad. To 
understand Boko Haram's appeal among some Nigerians in the far 
north, we need to understand the underlying development 
challenges facing northern Nigeria, where high rates of poverty 
and unemployment are exacerbated by extreme population growth 
and low levels of literacy.
    This map indicates, as you will see, some of the low levels 
of development, particularly in the north, but throughout the 
country. These factors, combined with weak governance, rampant 
corruption, and inadequate public service delivery, have 
contributed to widespread disaffection that many suggest may 
facilitate Boko Haram recruitment. Some observers contend that 
elements of the northern political classes have tolerated Boko 
Haram out of frustration with the government and sympathy for 
some of the group's political aims.
    A second question you may be considering is what are the 
Nigerian and U.S. governments doing about Boko Haram, and is it 
working? Boko Haram is a threat that most observers agree must 
ultimately be dealt with by the Nigerian government. But many 
consider the government's responses to date to be ineffective. 
Indeed, some critics contend that the government has 
contributed to the problem. The Nigerian government has 
deployed a joint task force, with military and police forces, 
to the area most affected by Boko Haram. It has established a 
heavy security presence in the capital of Borno State, 
Maiduguri, conducting house-to-house searches and generating 
considerable ill will among local communities for its at times 
aggressive response.
    Many Nigeria experts caution that if Nigeria's security 
services continue their heavy-handed responses in the 
northeast, it may further alienate local communities. President 
Jonathan, president of Nigeria, has acknowledged the need to 
foster development in the north and to address the perceived 
marginalization that has fueled periodic protests against the 
government. It is unclear, however, if his government has the 
political will or clout to effect major changes. I want to note 
that the Obama administration considers Nigeria to be a key 
partner, and is providing the country with military training 
through a range of programs. An emphasis on human rights and 
civilian control of the military is an important component to 
these programs given Nigeria's history of military rule.
    Mr. Meehan. Ms. Ploch, could I ask you to try to--because 
we will be able to get to some of this as well in your direct 
testimony. So could I ask you to try to summarize?
    Ms. Ploch. I will sum it up. In approaching the Boko Haram 
threat, the State Department has urged that the Nigerian 
government balance its security response with efforts to 
address some of the legitimate grievances of the northern 
Nigerian communities. Administration officials recognize the 
need to help Nigeria bolster its counterterrorism capabilities, 
but they are also pressing the Nigerian security forces and the 
federal and state governments be more effective in their 
response to Boko Haram.
    Going forward, U.S. policymakers must determine the various 
risks, benefits, and trade-offs associated with the different 
counterterrorism and counterradicalization measures, and they 
must weigh their effects against other U.S. policy goals in the 
wider region. I look forward to your questions.
    Mr. Meehan. Thank you, Ms. Ploch.
    [The statement of Ms. Ploch follows:]

                   Prepared Statement of Lauren Ploch
                           November 30, 2011

    Chairman Meehan, Ranking Member Speier, and distinguished Members 
of the House Subcommittee, thank you for inviting CRS to testify today 
regarding the threat posed by Boko Haram, a violent Islamist group in 
northern Nigeria that has grown increasingly active in the past year. 
While Boko Haram has remained primarily focused on a domestic agenda, 
there are indications that some elements of the group may be expanding 
ties with more developed violent Islamist groups in Africa, 
particularly the regional al-Qaeda affiliate, al-Qaeda in the Islamic 
Maghreb (AQIM).
    Boko Haram emerged in the early 2000s as a small, radical Sunni 
Islamic sect that advocated a strict interpretation and implementation 
of Islamic law for the country. Calling itself Jama'a Ahl as-Sunna Li-
da'wa wa-al Jihad (JASLWJ; roughly translated from Arabic as ``People 
Committed to the Propagation of the Prophet's Teachings and Jihad''), 
the group is more popularly known as Boko Haram (``Western education is 
forbidden''), a nickname given by local Hausa-speaking communities to 
describe the group's view that western education and culture have been 
corrupting influences in Nigeria. Periodic skirmishes with police 
occurred in Boko Haram's formative years, but the group's activities 
were limited in scope and contained within several highly impoverished 
states in the predominately Muslim northeast. Until this year, the 
Nigerian government appears to have primarily considered Boko Haram to 
have been merely a nuisance, particularly in comparison to secular 
militant groups threatening oil production in the southern Niger Delta 
region.
    In July 2009, the Nigerian government's attempts to stop Boko 
Haram's attacks on police stations and other government buildings 
resulted in at least 700 deaths. In the course of that violence, the 
group's leader, Mohammed Yusuf, a charismatic young cleric who had 
studied in Saudi Arabia, was killed while in police custody.\1\ A 
sizeable number of Yusuf's followers were also killed or arrested.
---------------------------------------------------------------------------
    \1\ ``Islamic Death `Good for Nigeria','' BBC, July 31, 2009.
---------------------------------------------------------------------------
    Boko Haram appeared to dissipate after the heavy-handed security 
crackdown, but reemerged a year later, orchestrating a large-scale 
prison break in September 2010 that freed 700 prisoners, including more 
than 100 of its own members. The group's attacks have since increased 
substantially in frequency, reach, and lethality, now occurring almost 
daily in northeast Nigeria. They now periodically reach as far as the 
capital city of Abuja. The group has primarily focused its attacks on 
state and federal targets such as police and military facilities and 
other government buildings, but has also targeted civilians in 
churches, mosques, and beer halls. Bank robberies have also been 
attributed to the group and may contribute to its financing, although 
Nigerian authorities warn that criminal groups may also be 
opportunistically posing as Boko Haram militants.
    By most accounts, Boko Haram is not a monolithic organization. As 
it has evolved, it appears increasingly diffuse. Its cells appear to 
operate largely autonomously under state or regional-level leadership, 
although leadership is generally attributed to Yusuf's former second-
in-command, Abubakar Shekau. According to U.S. Government sources, the 
core group of Boko Haram militants may number in the hundreds, but the 
group also draws support from a broader following of several thousand 
Nigerians, primarily from the northeast. Some observers suggest that 
attacks attributed to Boko Haram may actually be the work of several 
different groups, noting variations in the tactics and bomb-making 
styles employed in recent attacks. Others suggest Boko Haram may be 
susceptible to fracturing, with a segment of the leadership working to 
build ties with the international al-Qaeda franchise while most other 
elements of the group remain focused exclusively on a local agenda.
    Since its reemergence, Boko Haram has appeared increasingly 
committed to acts that aim to discredit and delegitimize the Nigerian 
state by exposing the weakness of its security apparatus and creating 
generalized insecurity. Targeted shootings from motorbikes have been a 
hallmark of Boko Haram, although attacks attributed to the group since 
2010 have increasingly featured improvised explosive devices (IEDs), 
car bombs, and, more recently, suicide attacks.\2\ In a region where 
small arms are fairly easy to acquire, the low-cost use of gunmen to 
intimidate opponents, instill fear, and create a heightened sense of 
insecurity has been remarkably effective. The state of Borno, where 
many of Boko Haram's attacks have occurred, is now described by some 
observers as a police state, albeit an ineffective one. On November 4, 
armed men claiming affiliation with Boko Haram committed the group's 
most deadly spate of bombings and shootings to date, killing as many as 
130 people in attacks against government buildings, banks, churches, 
and mosques in the northeastern state of Yobe. According to Human 
Rights Watch, more than 425 people, including politicians, community 
and religious leaders, members of the security forces, and civilians 
have been killed in attacks attributed to Boko Haram.\3\
---------------------------------------------------------------------------
    \2\ The June 2011 attack on the National Police Headquarters in 
Abuja is reported to be Boko Haram's first use of a vehicle-borne 
improvised explosive device.
    \3\ Human Rights Watch (HRW), ``Nigeria: Boko Haram Attacks 
Indefensible,'' November 8, 2011.
---------------------------------------------------------------------------
   IS BOKO HARAM EVOLVING FROM A DOMESTIC TO A TRANSNATIONAL THREAT?

    The August 24 suicide bombing of the United Nations building in 
Abuja has put Boko Haram under increased international scrutiny. The 
targeting of the United Nations by a suicide bomber marks a major 
departure from the group's previous focus on domestic targets. 
Likewise, it was Boko Haram's first clearly intentional suicide 
bombing.\4\ Spokesmen for the group have claimed responsibility for the 
attack, declaring it to be retribution for the state's heavy-handed 
security response against its members. They have also have referenced 
U.S. and international ``collaboration'' with the Nigerian government 
and its security apparatus as rationale for targeting the United 
Nations.\5\ As the group's first known operation against an 
international target, the U.N. bombing may indicate an aspiration by 
some in Boko Haram to move beyond local and national politics toward an 
international jihadist agenda, or it may be part of an effort to elicit 
backing from international groups for its domestic agenda.
---------------------------------------------------------------------------
    \4\ Some refer to a June 2011 bombing of the police headquarters in 
Abuja as a suicide attack, but others suggest the bomber's death may 
not have been intentional.
    \5\ ``Alleged Islamic Sect `Spokesman' Claims Deadly Attack on U.N. 
in Nigeria,'' AFP, August 26, 2011; and ``Nigerian Islamists Claim 
Responsibility for U.N. Building Blast,'' Xinhua, August 28, 2011.
---------------------------------------------------------------------------
    Media reports suggest that, in the wake of the July 2009 crackdown 
against Boko Haram, some of its members and senior leaders may have 
dispersed to neighboring countries to regroup and receive paramilitary 
training at AQIM camps. Cross-border transit by Boko Haram militants to 
and from neighboring Chad and Niger remains a serious concern. Experts 
have noted that Boko Haram's attacks show increasing coordination and 
sophistication and that their tactics at times resemble those of al-
Qaeda and its affiliates. The U.N. attack is reminiscent of the deadly 
2007 attack by AQIM on a U.N. building in Algeria. That attack, 
conducted in coordination with bombings of several government 
buildings, marked a shift in AQIM's tactics to large-scale suicide 
attacks after the Algerian militant Islamist group formerly known as 
the Salafist Group for Preaching and Combat (GSPC) changed its name to 
AQIM.
    In Congressional hearings earlier this year, Director of National 
Intelligence James Clapper highlighted a range of security concerns in 
Nigeria as potential threats to U.S. National interests, touching on 
political and sectarian violence and militancy in the Niger Delta as 
well as in the northeast, where Boko Haram was becoming increasingly 
active.
    In his testimony, he suggested that although Boko Haram appeared to 
remain largely focused on domestic issues, ``it may be pursuing 
interests it shares with'' AQIM.\6\ More recently, CIA Director David 
Petraeus named the group during a joint hearing of the House and Senate 
Intelligence Committees on threats to the United States.
---------------------------------------------------------------------------
    \6\ See the February 2011 hearings by the House and Senate 
intelligence communities on worldwide threats. See also a joint hearing 
by the House and Senate Select Intelligence Committees, ``Threats 
Against the United States Since September 11, 2001,'' held on September 
13, 2011.
---------------------------------------------------------------------------
    U.S. intelligence officials continue to warn that despite the 
reportedly degraded capacity of al-Qaeda to carry out attacks against 
the U.S. homeland, al-Qaeda sympathizers and affiliated groups still 
pose a significant threat. As CRS has noted in its coverage of al-
Qaeda's affiliated groups, AQIM continues to pose the main 
transnational terrorist threat in North Africa and the Sahel, but to 
date none of AQIM's actions indicate a clear threat to the U.S. 
homeland.\7\ AQIM does, however, continue to threaten U.S. and Western 
targets in Algeria and the Sahel, and if it were to work together with 
Boko Haram the groups could expand their operational reach. AQIM has 
expressed support for the creation of an Islamic caliphate in Nigeria, 
and AQIM leader Abdelmalik Droukdel publicly offered Boko Haram 
assistance in early 2010.\8\ In October 2010, AQIM's media arm 
published a statement by Shekau that is cited by analysts as the first 
time AQIM had disseminated an official message from another group.\9\ 
AQIM and Boko Haram officials have referenced growing ties in public 
statements, although many observers suggest their relationship has been 
more ``aspirational'' than operational.\10\ U.S. officials report that 
contact between members of the groups is increasingly frequent.\11\
---------------------------------------------------------------------------
    \7\ CRS Report R41070, Al Qaeda and its Affiliates, by John Rollins 
et al.
    \8\ ``Fertile Ground: The Potential for Jihad in Nigeria,'' Jane's 
Intelligence Review, September 2010.
    \9\ Open Source Center, ``Terrorism--AQLIM Publication of Boko 
Haram Statement Indicates Ties,'' OSC Report FEA20101020010563, October 
19, 2010.
    \10\ See, e.g., ``Boko Haram `Spokesman' Claims Al-Qa'ida Links,'' 
AFP, November 24, 2011.
    \11\ Paul Cruickshank and Tim Lister, ``Al Qaeda-Linked Group Finds 
Fertile Territory in Nigeria as Killings Escalate,'' CNN, November 18, 
2011.
---------------------------------------------------------------------------
    If reports of AQIM providing weapons, personnel, and training are 
accurate, they warrant increased vigilance.\12\ Boko Haram's explosives 
have reportedly grown increasingly sophisticated and by some accounts 
may bear hallmarks of bomb-making techniques used by al-Qaeda 
affiliates. Some analysts caution, however, that the groups' 
relationship may still be fairly limited in scope and that a nominal 
link between Boko Haram and AQIM may be mutually beneficial to both 
groups. Publicly linking the two may serve to enhance Boko Haram's 
credentials among radicals to facilitate recruitment and financial 
support.
---------------------------------------------------------------------------
    \12\ Robyn Dixon, ``Nigeria Militant Group Boko Haram's Attacks 
Attract Speculation,'' Los Angeles Times, September 13, 2011.
---------------------------------------------------------------------------
    Concerns have been raised that Boko Haram may follow through on 
threats to target Nigeria's oil infrastructure, although many analysts 
argue that it would have a difficult time operating in the south, where 
the oil is produced. The May 2011 kidnapping of British and Italian 
citizens from northern Nigeria highlights a threat to foreign citizens 
in the region, and some experts speculate that Boko Haram may try to 
fundraise through kidnappings-for-ransom, a hallmark of AQIM and other 
Nigerian militant groups. Also of concern is the possibility that Boko 
Haram or AQIM may try to acquire weapons systems from former Libyan 
stockpiles, including surface-to-air missiles, which according to some 
reports may be flowing south through Niger.\13\ Nigeria is one of only 
a handful of West African countries to which U.S. airlines may fly 
directly from the United States.
---------------------------------------------------------------------------
    \13\ See, e.g., ``Report Reveals Inflow of Arms Into Northern 
Nigeria Through Niger, Chad Borders,'' Nigerian Tribune Online, October 
3, 2011.
---------------------------------------------------------------------------
    Given the jurisdiction of your committee, I understand that the 
attempted terror attack in December 2009 by a Nigerian passenger, Umar 
Farouk Abdulmutallab, on an American airliner en route to Detroit 
heightens concerns regarding radicalization within Nigeria's sizeable 
Muslim population and raises questions as to whether one of Boko 
Haram's followers might attempt something similar. Abdulmutallab, the 
son of a respected Nigerian banker and former government minister, had 
no known ties to Boko Haram; instead reports suggest that he became 
radicalized while living abroad. He received training and sponsorship 
in Yemen from al-Qaeda in the Arabian Peninsula (AQAP). Nevertheless, 
the expansion of groups like Boko Haram in northern Nigeria have raised 
concerns that other Nigerians may be susceptible to recruitment by al-
Qaeda or other groups hoping to use violence against government or 
civilian targets in Nigeria or abroad.

                  BOKO HARAM IN THE CONTEXT OF NIGERIA

    Understanding Boko Haram's appeal among some citizens in Nigeria's 
far north requires an examination of the underlying development 
challenges facing northern Nigeria, where high rates of poverty and 
unemployment are exacerbated by extreme population growth and low 
levels of literacy. These factors, combined with weak governance, 
rampant corruption, and inadequate public service delivery, have 
contributed to widespread disaffection that some suggest may facilitate 
Boko Haram recruitment. Some observers contend that elements of the 
northern political classes have ``tolerated'' Boko Haram out of 
frustration with the government and sympathy for some of the group's 
political aims.
    Nigeria is Africa's most populous country, with over 150 million 
people, roughly half Muslim and half Christian. It is also Africa's 
second-largest economy, after South Africa, and its largest producer of 
oil. Despite its oil wealth, Nigeria remains severely underdeveloped, 
and development indicators are lowest in the north (see attached maps). 
Poor governance and widespread corruption nationwide have severely 
limited infrastructure development and the provision of social 
services, thus hindering economic growth and leaving much of the 
country mired in poverty.
    Northern Nigeria was governed separately from the south under the 
British colonial administration. Military leaders from the north 
dominated Nigerian politics until the transition to civilian rule in 
1999, but the north shows little sign today of having benefited from 
their influence in government. The north is predominately Sunni Muslim, 
and twelve northern states have adopted sharia law since 1999 to 
adjudicate criminal and civil matters for Muslims.\14\ In some states, 
the introduction of sharia was a flashpoint between Muslims and 
Christians.\15\ The State Department reports that sharia ``technically 
does not apply to non-Muslims in civil and criminal proceedings,'' 
although observers note that Islamic mores are often enforced in public 
without regard for citizens' religion. In some areas, state-funded 
vigilante groups known as hisbah patrol public areas to enforce sharia 
rulings. Many analysts nonetheless see the interpretation and 
implementation of Nigerian sharia as moderate in comparison to that of 
some other Muslim-majority countries.
---------------------------------------------------------------------------
    \14\ Nigerian law protects freedom of religion and permits states 
to establish courts based on common law or customary law systems. Non-
sharia based common law and customary law courts adjudicate cases 
involving non-Muslims in these states, and sharia-based criminal law 
courts are elective for non-Muslims.
    \15\ In 2000, for example, an estimated 2,000 people were killed in 
Kaduna in clashes sparked by the introduction of Islamic law in the 
state.
---------------------------------------------------------------------------
    In Nigeria, divisions between ethnic groups, between regions, and 
between Christians and Muslims often stem from perceived differences in 
access to land and social and economic development. Clashes among 
communities in the culturally diverse ``Middle Belt'' (where north and 
south meet) in the past decade reflect tensions that are both religious 
and ethnic. These tensions stem from a competition over resources--
land, education, government jobs--between ethnic groups classified as 
settlers or ``indigene'' (original inhabitants of the state), a 
designation that conveys political and economic benefits.\16\ Some 
political elites fan communal resentments, leading periodically to 
considerable unrest and displacement. By some estimates, as many as 
13,000 Nigerians have been killed in sectarian violence since the 
return to civilian rule. Some analysts warn that these tensions, if 
left unaddressed, may ultimately threaten both the stability of the 
state and the wider region. The U.S. Commission on International 
Religious Freedom suggests that the government has tolerated the 
violence by failing to prevent or respond to it.\17\
---------------------------------------------------------------------------
    \16\ Communities classified as indigene vary from state to state.
    \17\ U.S. Commission on International Religious Freedom, Annual 
Report 2011, May 2011.
---------------------------------------------------------------------------
    A history of poor governance, corruption, and flawed elections has 
undermined the authority and legitimacy of the Nigerian state. 
Elections in the 2000s were deemed progressively worse than the last. 
Most observers, including U.S. officials, consider the April 2011 
elections to have been a significant improvement, but the elections 
were not without problems.\18\ Supporters of the leading opposition 
candidate for the presidency, a former northern military leader, 
alleged that the ruling party had rigged the poll to favor incumbent 
President Goodluck Jonathan, a southern Christian.\19\ The widespread 
post-election rioting and violence that broke out across the north in 
protest of Jonathan's win highlighted mistrust and grievances that many 
northerners feel have yet to be addressed. During that violence, which 
occurred largely along religious and ethnic lines, at least 800 people 
were killed, and more than 65,000 displaced.\20\
---------------------------------------------------------------------------
    \18\ See, e.g., the White House, Statement by President Obama on 
Elections in Nigeria, May 4, 2011; Secretary of State Hillary Clinton, 
Press Release: Election in Nigeria, April 19, 2011. Several political 
rallies were marred by bombings, predominantly in one of the Niger 
Delta states. There were at least six bombings in Borno state. Boko 
Haram claimed responsibility in January for the assassination of 
Borno's leading gubernatorial candidate and several of his supporters. 
Responsibility for the bombing of the state election commission 
headquarters in Niger state remains in question.
    \19\ There has been an unwritten agreement since 1999 that the 
presidency should rotate among regions. The death of President Umaru 
Yar'Adua in office in 2010 complicated that rotation. Yar'Adua, a 
northerner, was succeeded by his vice president, Goodluck Jonathan, a 
Christian from the Niger Delta. Jonathan won the support of key 
northern ruling party leaders to stand as the party's candidate in the 
2011 elections, despite warnings that suspending the regional rotation 
could increase the potential for regional conflict.
    \20\ HRW, ``Nigeria: Post-Election Violence Killed 800,'' May 16, 
2011.
---------------------------------------------------------------------------
    According to the State Department, corruption in Nigeria is 
``massive, widespread, and pervasive.''\21\ The country is a major drug 
trans-shipment point and a significant center for criminal financial 
activity. It is also considered by the State Department to be a major 
center for money laundering, and the government only recently 
criminalized terrorist financing.\22\ Observers suggest Nigeria's 
development will be hamstrung until it can reverse its perceived 
culture of impunity for political and economic crimes. Last week, 
Nigeria's President replaced the head of the country's anti-corruption 
agency, the Economic and Financial Crimes Commission (EFCC), as part of 
his effort to ``revitalize the fight against corruption''.\23\ Critics 
remain skeptical of the agency's effectiveness.\24\
---------------------------------------------------------------------------
    \21\ U.S. Department of State, ``Nigeria,'' Country Report on Human 
Rights Practices 2009, March 2010.
    \22\ U.S. Department of State, Bureau for International Narcotics 
and Law Enforcement Affairs, International Narcotics Control Strategy 
Report, Volume 2, March 2011, and Money Laundering and Financial Crimes 
Country Database, May 2011.
    \23\ ``Nigeria's Anti-Corruption Chief Farida Waziri Sacked,'' BBC, 
November 23, 2011.
    \24\ HRW, Corruption on Trial? The Record of Nigeria's Economic and 
Financial Crimes Commission, August 25, 2011.
---------------------------------------------------------------------------
    The Nigerian government faces mounting, and at times competing, 
internal and external pressures to implement reforms deemed key to 
addressing corruption and other development and security challenges. 
Its ability to address real grievances in both the restive Niger Delta 
region and in the populous north are critical to achieving the 
government's overall development goals and attracting much-needed 
foreign investment.

                  THE NIGERIAN RESPONSE TO BOKO HARAM

    Boko Haram is a threat that most observers agree must ultimately be 
dealt with by the Nigerian government, but many consider its responses 
to date to be ineffective. Indeed, some critics contend that the 
government has contributed to the problem. In September 2011, a 
commission appointed by President Jonathan to investigate the security 
challenges emanating from the northeast reported that security force 
lapses and heavy-handedness, weak governance, and underdevelopment had 
all contributed to the rise in violence in the region.
    The commission also recommended that the government engage Boko 
Haram in a dialogue, in effect trying to replicate negotiations with 
Niger Delta militants that led in 2009 to an amnesty and rehabilitation 
program that has, to date, been fairly successful in quieting militia 
attacks. Views on the proposed negotiations are mixed, given Boko 
Haram's loose organizational structure and perceptions that the demands 
of the hardline leadership of the group are not open to compromise. The 
Jonathan administration has been skeptical of negotiations, but has 
acknowledged the need to foster development in the north and address 
the perceived marginalization that has fueled periodic protests against 
the government. It is unclear, however, whether the Jonathan government 
has the political will or clout to affect major changes.
    Some reports suggest that Boko Haram may receive political 
patronage and sponsorship from certain northern elites.\25\ Nigerian 
police recently arrested a ruling party senator on suspicion of 
providing funding for the group, after an alleged Boko Haram spokesman, 
now in custody, reportedly linked him to the group. The motivations for 
certain elites to support the group are likely varied. Some may seek to 
embarrass President Jonathan or discredit the security services, while 
others may seek to use the group to serve local political ambitions or 
settle scores with opponents. The use of private militias by 
politicians has been an all-too-common occurrence in Nigerian politics.
---------------------------------------------------------------------------
    \25\ An alleged Boko Haram spokesman, Ali Sanda Umar Konduga, who 
was arrested in November 2011, has reportedly implicated Senator 
Mohammed Ali Ndume of the country's ruling party as a sponsor. Ndume is 
a member of a committee appointed by President Jonathan to consider 
peace negotiations with Boko Haram. Konduga may also have implicated 
other former members of the Nigerian government, including an 
ambassador who is now deceased and a former governor. ``Arrest of 
Senator, Alleged Voice of a Radical Muslim Sect in Nigeria Brings More 
Questions,'' Associated Press, November 23, 2011.
---------------------------------------------------------------------------
    While successive Nigerian administrations have been supportive of 
international counterterrorism initiatives, the government has been 
slow to adopt anti-terrorism legislation. The Nigerian parliament 
finally adopted long-debated anti-terrorism and money laundering laws 
earlier this year amid mounting political pressure after a series of 
bombings. If allegations of financing by northern elites are credible, 
the Nigerian government may benefit from technical assistance in 
forensic accounting. Given sensitivities regarding general corruption, 
however, it is unclear whether the government would welcome such an 
offer. Interested donors may also consider efforts to support the 
Jonathan administration's attempts to increase interagency coordination 
and restructure the Nigerian security services to better respond to 
terrorist threats.
    As the violence in the northeast escalated in mid-2011, the 
Nigerian government determined that the police lacked the capacity to 
counter the threat posed by Boko Haram and deployed a Joint Task Force 
(composed of military and police) to the northeast. The Task Force has 
established a heavy security presence in Maiduguri, the capital of 
Borno state, conducting house-to-house searches, and generating 
considerable ill-will among local communities for its at times 
aggressive and intrusive response. Several respected northern leaders 
have called on the government to withdraw the force. Nigerian security 
forces, particularly the police, have historically been accused of 
serious human rights abuses. Activists suggest that the government has 
done little to address issues of impunity and corruption within the 
police force. In 2007, the U.N. Special Rapporteur on Torture reported 
that ``torture is an intrinsic part of how law enforcement services 
operate within the country.''\26\ The State Department's annual human 
rights reports on Nigeria document numerous serious abuses by security 
forces. Many Nigeria experts caution that if Nigerian security services 
continue their heavy-handed response in the northeast, it may further 
alienate local communities.
---------------------------------------------------------------------------
    \26\ U.N. Press Release, ``Special Rapporteur on Torture Concludes 
Visit to Nigeria,'' March 12, 2007.
---------------------------------------------------------------------------
    The State Department's 2009 human rights report noted serious 
abuses by both police and soldiers during the July 2009 Boko Haram 
uprising and cited ``credible media reports'' claiming that police 
executed Yusuf. Nigerian officials have acknowledged some abuses, and 
in July 2011 criminal charges were finally filed against five police 
officers, including three who hold fairly senior positions, for the 
killing of Yusuf and his followers. In August 2011, the military 
commenced the court marshal of a military commander in charge of forces 
responsible for the deaths of 42 militants during the June 2009 
violence.

 U.S. INTERESTS IN NIGERIA AND U.S. ENGAGEMENT ON THE BOKO HARAM THREAT

    The Obama administration considers Nigeria to be one of its key 
strategic partners on the continent, and various U.S. Government 
agencies appear to be considering the threat posed by Boko Haram 
through different lenses. The United States and Nigeria, which 
currently sits on the U.N. Security Council, often find common ground 
in international fora. The country plays a significant role in peace 
and stability operations across Africa and is a major troop contributor 
to U.N. peacekeeping operations around the world. Its geostrategic 
position in West Africa and its role as significant supplier of oil to 
the United States are also key considerations in U.S-Nigeria relations. 
Additionally, Nigerians comprise the largest percentage of African 
immigrants living in the United States.
    Given Nigeria's strategic potential, the United States provides the 
country with military training, emphasizing professionalism and respect 
for human rights and civilian authority through a range of programs. 
Efforts to enhance Nigeria's peacekeeping capabilities are a primary 
focus, as are initiatives to secure its land and maritime borders. 
Nigeria participates in the State Department's Trans Sahara 
Counterterrorism Partnership (TSCTP), a U.S. interagency effort that 
aims to increase border protection and regional counter-terrorism 
capabilities. However, it has historically played a comparatively minor 
role in that initiative in contrast to the Sahel states affected by 
AQIM. The Nigerian military has also received counterterrorism 
assistance through the Department of Defense, although the amount it 
has received is smaller than that received by the Sahel states or the 
East African countries neighboring Somalia. Human rights and corruption 
concerns have limited U.S. assistance for the Nigerian police.
    The United States is the largest bilateral donor in Nigeria, 
providing over $600 million annually in recent years to bolster 
democratic governance, agriculture and economic reform, education and 
health services, and to professionalize and reform the security 
services. The overwhelming majority of that aid is focused on health 
programs. The U.S. Government has urged greater attention to 
development in the north, and USAID implements several ``flagship'' 
programs in two northern Nigerian states: Sokoto and Bauchi (the latter 
is located in the northeast and has suffered Boko Haram attacks in the 
past year). These programs, which are designed to concentrate resources 
and achieve maximum impact, aim to strengthen state and local 
government education and primary health care systems, and to build 
local public-private partnerships in an attempt to improve 
accountability and service delivery. Other programs that may benefit 
the north include U.S. efforts to support reforms to the country's 
power sector that may increase access to electricity. The Obama 
administration is also initiating new conflict mitigation programs to 
address extremism in the north. The State Department maintains 10 
``American Corners'' (regional resource centers) in Nigeria to share 
information on American culture and values.
    Cooperation on counterterrorism reportedly improved in the 
aftermath of the December 2009 airliner bombing attempt, although some 
government officials remain sensitive to perceived foreign intrusion in 
domestic affairs. The Nigerian government has coordinated with the 
Department of Homeland Security, the Federal Aviation Administration, 
and the International Civil Aviation Organization to strengthen 
security systems at Nigeria's international airports, and began using 
full body scanners in 2010. The Nigerian government has also reportedly 
been receptive to post-blast investigative support by the Federal 
Bureau of Investigation since the August 2011 U.N. bombing.
    In approaching the threat posed by Boko Haram, the State Department 
has urged the Nigerian government to balance its security response with 
efforts to address some of the legitimate grievances voiced by northern 
communities. Obama administration officials have recognized the need to 
help Nigeria bolster its counterterrorism capabilities and secure its 
borders, but will likely press for more effective responses from 
Nigeria's security forces and its federal and state government 
structures in responding to the Boko Haram phenomenon. Boko Haram may 
not find widespread support for its tactics in northern Nigeria, but it 
does enjoy some sympathy for its cause. Going forward, U.S. 
policymakers must determine the various risks, benefits, and tradeoffs 
associated with the different counterterrorism and counter-
radicalization measures in their toolkit and weigh their effects 
against other U.S. policy goals in the country and the wider region.

    Mr. Meehan. Dr. Laremont.

  STATEMENT OF RICARDO RENE LAREMONT, PROFESSOR OF POLITICAL 
SCIENCE AND SOCIOLOGY, BINGHAMTON UNIVERSITY, STATE UNIVERSITY 
                          OF NEW YORK

    Mr. Laremont. Chairman Meehan, Ranking Member Speier, and 
other distinguished Members of this subcommittee, thank you for 
this opportunity to discuss my views concerning Boko Haram, al-
Qaeda in the Islamic Maghreb, and Al-Shabaab. NATO's 
prosecution of a combined counterterrorism and 
counterinsurgency campaign in Pakistan and Afghanistan have 
decimated the ranks of what has been known as al-Qaeda Central, 
and has caused its remnants to seek--hereinafter as AQ--to seek 
havens elsewhere, notably in Yemen, the Horn of Africa, North 
Africa, and the Sahel.
    Al-Qaeda has an established pattern of attempting to create 
safe havens for operations in regions of the world where 
governmental presence is minimal. While America and NATO have 
surged in Afghanistan and Pakistan, al-Qaeda has also surged in 
the regions mentioned above. One of our tasks today is to 
assess both the evidence and the potential threat of 
collaboration among Boko Haram, al-Qaeda in the Islamic 
Maghreb, and Al-Shabaab.
    Now, as has been mentioned by both the Members of this 
committee and the members of this panel, Boko Haram was 
established in 2002. It is essentially an Islamist religious 
sect, and it has operated principally in the northeastern 
Nigerian states of Borno and Yobe, which are substantially 
isolated from the rest of the country. Boko Haram has opposed 
the Government of Nigeria because it claims that the government 
is both secular and corrupt. Boko Haram is offering an 
alternative, to create an Islamic state in Nigeria that would 
render justice and provide transparency in government in 
Nigeria. It is trying to do this even though Nigeria is 
essentially a bi-religious society, with approximately 55 
percent of the population being Muslim, and the remainder being 
Christians or practitioners of African traditional religions. 
Since 2009, Boko Haram has attacked police officers and Army 
officers, and politicians and clerics, and even ordinary 
citizens, but primarily in northeastern Nigeria. They have been 
doing so by using assailants who use mopeds in drive-by 
attacks, and they have used handguns, rifles, and small 
explosives.
    The key event that has caused perhaps the attention of this 
committee is that in the beginning of June 16, 2011, Boko Haram 
changed its choice of targets for the first time, and also 
moved from attacking northern Nigeria to striking the capital. 
On that date, it exploded a car bomb in the parking lot of 
police headquarters in Abuja, not killing anyone, but 
destroying 40 vehicles in that parking lot. This, however, 
signaled a shift from the United States of drive-by assailants 
on mopeds to the first use of a vehicle and improvised 
explosive device.
    Subsequently, on August 26, 2011, the Boko Haram launched a 
second attack against U.N. headquarters in Abuja, killing 18 
persons in that attack. Since then, soft targets, including 
upscale hotels in Abuja, including the Hilton, the Sheraton, 
and the Nikon Luxury have been targeted. I can't believe I have 
1 minute left.
    Let me, with my remaining 60 seconds, cut to the chase, 
although I won't touch on all the issues that are particularly 
relevant. I think that what this committee needs to focus upon 
is on what other panelists have said. North Africa and the 
Sahel need to be seen as a continuum, one that extends from 
southern Algeria and southern Libya to northern Nigeria, and 
embracing a region from the west with Mauritania, and ending in 
Sahel. What the intelligence community and what the Congress 
has failed to do is to look at this region the way AQ looks at 
this region. That is that the Sahel is a continuum. I have zero 
time left, so let me add one more thing that I think is 
relevant to what you need to think about moving forward. That 
is that the fall of the Qadhafi regime in Libya is the single 
most important development upon which we need to focus our 
attention.
    The looting of high-grade armaments from the Ajdabiya and 
Benghazi arms depot has meant that those armaments have been 
sacked by al-Qaeda in the Islamic Maghreb. Al-Qaeda in the 
Islamic Maghreb has already indicated, by its public 
declarations, that it seeks to link with both Boko Haram and 
Al-Shabaab. So to underline what I am trying to say is that in 
this space where there is limited governmental operations, we 
have a series of groups operating who have clearly, in their 
public declarations, signaled their intent to unify. When we 
take their intent with the availability of the sophisticated 
armaments that have been looted in Libya, we have a--well, it 
is the potential for an extraordinarily destabilizing 
combination.
    In order to address that concern, the United States 
Government needs to acquire the information that it does not 
have, which is: How many persons are actually engaged in this 
insurgency, what are their aspirations, which we have a sense 
of, but more importantly, what is their capacity? Thank you.
    [The statement of Mr. Laremont follows:]

              Prepared Statement of Ricardo Rene Laremont

    Chairman Meehan, Ranking Member Speier, and distinguished Members 
of the subcommittee, I would like to thank you for the opportunity to 
discuss my views concerning Boko Haram, al-Qaeda in the Islamic 
Maghreb, and Al Shabab.
    NATO's prosecution of a combined counterterrorism and 
counterinsurgency campaign in Pakistan and Afghanistan has decimated 
the ranks of what has been known as al-Qaeda Central and has caused its 
remnants (hereinafter AQ) to seek safe havens elsewhere, notably in 
Yemen, the Horn of Africa, North Africa, and the Sahel. AQ has an 
established pattern of attempting to create safe havens for operations 
in regions of the world where governmental presence is minimal. While 
America and NATO have ``surged'' in Afghanistan and Pakistan, AQ has 
also ``surged'' in the regions mentioned above. One of our tasks today 
is to assess both the evidence and the potential threat of 
collaboration among Boko Haram, al-Qaeda in the Islamic Maghreb, and Al 
Shabab.
    Boko Haram, which was founded in 2002, is an Islamist religious 
sect operating primarily in the northeastern Nigerian states of Borno 
and Yobe. Boko Haram opposes the government of Nigeria because it 
claims that the government is secular and corrupt. Boko Haram endeavors 
to create an Islamic state in Nigeria that it claims would render 
justice and provide transparency in government in Nigeria. It is 
seeking to establish an Islamic state even though Nigeria is a bi-
religious society with approximately 55% of the population being Muslim 
with the remainder being Christians or practitioners of African 
traditional religions. Since 2009 Boko Haram has attacked police and 
army officers, politicians, clerics, and ordinary citizens, primarily 
in northern Nigeria. Its attacks have mostly involved assailants who 
use mopeds in ``drive-by'' attacks employing handguns, rifles, or small 
explosives. Beginning on June 16, 2011, however, Boko Haram changed its 
choice of targets by striking beyond northern Nigeria for the first 
time. It struck Police Headquarters in Abuja, the capital of Nigeria, 
destroying 40 vehicles in the Police Headquarters parking lot. It also 
changed tactics by moving from ``drive-by shootings'' to detonating an 
improvised explosive device (IED). The use of an IED in this attack 
involved a level of sophistication regarding bomb construction that 
arguably was obtained elsewhere, most likely from resources within the 
al-Qaeda network. On August 26, 2011 Boko Haram undertook a second IED 
attack in Abuja, this time using a suicide bomber who drove an 
explosives-laden truck into the headquarters for the United Nations, 
killing 18 persons in that attack.\1\ Since the attack on the United 
Nations headquarters, Nigeria's State Security Service has disclosed it 
has information that Boko Haram intends to target up-scale hotels in 
Abuja, notably the Hilton, the Sheraton, and the Nikon Luxury.\2\ This 
shift in tactics and location of attacks changes the nature of Boko 
Haram's threat with Western interests now being targeted. Also of 
interest for the security community has been an alleged attempt to link 
the operations of Boko Haram with al-Qaeda in the Islamic Maghreb, 
which is a larger, more effective, and more lethal Islamist jihadist 
group presently operating in Algeria, Mauritania, Mali, Niger, and 
Chad.
---------------------------------------------------------------------------
    \1\ http://www.guardian.co.uk/world/2011/aug/26/nigeria-attack-
islamists-claim-responsibility, accessed 23 November 2011.
    \2\ http://www.nigeriadailynews.com/general/30688-luxury-hotels-in-
abuja-deserted-over-threat-of-attack-by-boko-haram.html, accessed 23 
November 2011.
---------------------------------------------------------------------------
    Al-Qaeda in the Islamic Maghreb (AQIM) is an Islamist jihadist 
group that originally was formed to depose the government of Algeria 
but it has become a transnational group operating in Algeria, 
Mauritania, Mali, Niger, Chad, and now--because of possible linkages 
with Boko Haram--Nigeria.\3\ While AQIM in northern Algeria primarily 
focuses upon attacking police and military officials in a region that 
extends from the capital Algiers and then moves towards the east into 
the Kabylie mountains, AQIM in the Sahel is an organization that hopes 
to play a greater and clearly destabilizing role in that region. AQIM's 
aspirations for expanded range of operations and tactical effectiveness 
may increase in the near future because of the security vacuum that has 
been generated by the fall of Muammar al-Qaddafi's regime in Libya, 
which was a regime that was firmly opposed to Islamist jihadism in the 
Sahel.
---------------------------------------------------------------------------
    \3\ For more on AQIM, see Ricardo Rene Laremont, ``Al-Qaeda in the 
Islamic Maghreb: Terrorism and Counterterrorism in the Sahel,'' African 
Security. Vol. 4 (2011): 242-268 and Steven Harmon, ``From GSPC to 
AQIM: The Evolution of an African islamist terrorist group into an Al-
Qa'ida Affiliate and its implications for the Sahara-Sahel region,'' 
http://concernedafricascholars.org/docs/bulletin85harmon.pdf, accessed 
23 November 2011.
---------------------------------------------------------------------------
    When security analysts examine the possibility for instability in 
the Sahel they cannot assess Boko Haram, AQIM, and Al Shabab in 
isolation. The Sahel--which stretches from Mauritania to Somalia and 
from southern Algeria to northern Nigeria--must be understood as a 
continuum. The Sahel is either desert or savannah and its residents--
from pastoralists to manual workers--largely disregard the borders of 
the countries that comprise it. Similarly, violent jihadists of various 
schools--from Boko Haram to AQIM and the Libyan Islamic Fighting Group 
and the Moroccan Islamic Fighting Group--also understand this region as 
a united continuum upon which they plan their future operations.
    In the wake of the fall of the Qaddafi's regime in Libya, it is 
rather clear that AQIM and its potential allies of Boko Haram and Al 
Shabab aspire to expand their operations. Muammar Qaddafi opposed 
Islamist jihadist groups in the region and he used either money (by 
funding social, education, or construction programs) or arms (using his 
security forces) to inhibit their operations. With Qaddafi gone and a 
security vacuum being created, AQIM and its allies find themselves in a 
situation within which they plan to expand. We must obviously concede 
that there will be gaps between AQIM's and Boko Haram's aspirations for 
expansion and their accomplishment of these objectives.
    Nevertheless, there is evidence being obtained from various 
sources--including open-source materials, newspaper accounts, and 
interviews with officials in the Sahel--that lead us to conclude that 
AQIM in particular hopes to seize upon the chaos created by the fall of 
Qaddafi to advance their regional objectives. In Algeria, Mauritania, 
Mali, and Niger AQIM intends to expand their already existing links 
with local Tuareg tribes who have episodically opposed central 
governments in the region. Also, in these same countries discussions 
have already taken place to establish better working relationships 
between AQIM and former Malian and Nigerian Tuareg soldiers who had 
been in the employ of Qaddafi's now disbanded African Legion. That 
Legion employed approximately 1,000 soldiers who fought for Qaddafi. 
These soldiers have seized high-quality armaments in Libya, including 
anti-aircraft artillery, SA-7 surface-to-air missiles, and other 
armaments.\4\
---------------------------------------------------------------------------
    \4\ Daya Gamage, ``Libyan Rebel Commander Admits Link to al-Qaeda: 
Chad President says al-Qaeda-Acquired Weapons in Rebel Zone,'' 
www.asiantribune.com/news/2011/03/28/libyan-rebel-commander-admits-
link-al-qaeda-chad-president-says-al-qaeda-acquired-we, accessed March 
30, 2011; Felipe Pathe Duarte, ``Maghrebian Militant Maneuvers: AQIM as 
a Strategic Challenge,'' http://csis.org/publication/maghrebian-
militant-maneuvers-aqim-strategic-challenge, accessed 23 November 2011.
---------------------------------------------------------------------------
    Besides expanding their operations in Algeria, Mali, and Niger, 
AQIM will also attempt to relink with members or former members of the 
Libyan Islamic Fighting Group (LIFG), some of whom are participating in 
the formation of Libya's new government. Among LIFG members playing 
prominent roles in Libya's National Transitional Council include Abd 
al-Hakim Belhaj (the commander of Tripoli's Military Council) and 
Abdel-Hakim al-Hasidi.\5\ Belhaj has publicly alleged being tortured by 
the CIA in Bangkok and he has also acknowledged past ties to al-Qaeda 
and to his having met Osama bin Laden. He now claims to have modified 
his political views and he has declared his desire to create a 
pluralist and inclusive political structure in Libya that will be 
tolerant of diverse points of view.\6\
---------------------------------------------------------------------------
    \5\ Praveen Swami, Nick Squires and Duncan Gardham, ``Libyan rebel 
commander admits his fighters have al-Qaeda links,'' The Telegraph, 23 
November 2011, http://www.telegraph.co.uk/news/worldnews/
africaandindianocean/libya/8407047/Libyan-rebelcommander-admits-his-
fighters-have-al-Qaeda-links.html, accessed 23 November 2011; Omar 
Ashour, ``Ex-Jihadists in the New Libya,'' Foreign Policy, 29 August 
2011, http://mideast.foreignpolicy.com/posts/2011/08/29/
post_qaddafi_libya_islamists_arms_and_democracy_0, accessed 23 November 
2011; Souad Mekhennet and Eric Schmidt, ``Exiled Islamists Watch 
Rebellion Unfold at Home,'' The New York Times, 18 July 2011, http://
www.nytimes.com/2011/07/19/world/africa/19rebel.html, accessed 23 
November 2011.
    \6\ Abdel Hakim Belhaj, ``The revolution belongs to all Libyans, 
secular or not.'' The Guardian, 26 September 2011, http://
www.guardian.co.uk/commentisfree/2011/sep/27/revolution-belongs-to-all-
libyans, accessed 23 November 2011; Hadeel Al-Shalchi and Maggie 
Michael, ``Abdel Hakim Belhaj, Libya Rebel Commander, Plays Down 
Islamist Past,'' The Huffington Post, 23 November 2011, http://
www.huffingtonpost.com/2011/09/02/abdel-hakim-belhaj_n_946518.html, 
accessed 23 November 2011; David Poort, ``Q&A: Top NTC commander Abdel 
Hakim Belhadj.'' http://www.aljazeera.com/indepth/features/2011/11/
20111117102116501736.html, accessed 23 November 2011; [sic].
---------------------------------------------------------------------------
    Moving beyond Algeria, Mali, Niger, and Libya, we will see that 
AQIM will attempt to link with and assist Boko Haram in Nigeria. 
Indeed, AQIM's leader, Abu Musab Abd Al Wadoud told Al Jazeera that his 
group would provide Boko Haram with support.\7\ The Nigerian and the 
Algerian governments are right now investigating now to see whether a 
Boko Haram-AQIM link exists.\8\ While the evidence at this moment in 
time is weak and inconclusive, we should remain vigilant because a 
viable connection between AQIM and Boko Haram makes sense from AQIM's 
and Boko Haram's strategic perspectives.
---------------------------------------------------------------------------
    \7\ STRATFOR, ``The Rising Threat from Nigeria's Boko Haram 
Militant Group, 10 November 2011, http://www.stratfor.com/weekly/
20111109-rising-threat-nigerias-boko-haram-militant-group, accessed 24 
November 2011.
    \8\ Paul Cruickshank and Tim Lister, ``Al Qaeda-linked group finds 
fertile territory in Nigeria as killings escalate,'' http://
www.cnn.com/2011/11/18/world/africa/nigeria-militants/index.html, 
accessed 23 November 2011; Karen Leigh, ``Nigeria's Boko Haram: Al-
Qaeda's New Friend in Africa?'' Time Magazine, 31 August 2011, http://
www.time.com/time/world/article/0,8599,2091137,00.html, accessed 23 
November 2011; Robyn Dixon, ``Nigeria militant group Boko Haram's 
attacks attract speculation,'' The Los Angeles Times, 13 September 
2011, http://articles.latimes.com/2011/sep/13/world/la-fg-nigeria-boko-
haram20110914, accessed 23 November 2011; Lamine Chikhi, ``Algeria says 
Nigeria's Boko Haram tied to al Qaeda,'' Reuters, http://
af.reuters.com/article/topNews/idAFJOE7AD01H20111114, accessed 24 
November 2011.
---------------------------------------------------------------------------
    If AQIM were to link successfully with Boko Haram in Nigeria, this 
development would not only affect Nigeria; such a development would 
arguably have destabilizing effects throughout West Africa. Nigeria is 
the pivotal state in West Africa. When it becomes weaker or unstable, 
the entire West African region is affected. That is why this issue of 
Boko Haram and AQIM that we are examining in this hearing needs to be 
dealt with now while it is in its earliest stages, before what 
presently seems a weak and inconclusive link becomes more real and 
dangerous. It would seem that a thorough-going security analysis of the 
political, social, and economic factors that make northern Nigeria 
particularly susceptible to targeting by jihadist groups would be in 
order. It would seem that an investment in the acquisition of relevant 
data for security analysis now would enhance the security of the United 
States and would cost less than waiting until these trends worsen (as 
they did previously in Afghanistan, Pakistan, Somalia, and Yemen).
    This needed security analysis would lead us to understand why 
northern Nigeria in particular has become fertile ground for Islamist 
jihadist recruiters. Nigeria is a diverse country with its residents' 
religious affiliations being arranged over a Muslim-Christian divide. 
That is one reason for tension between the religions. Furthermore, wide 
differences in wealth exist between an essentially destitute northern 
region and a somewhat more prosperous south. (The south substantially 
obtains most of its income from petroleum exploration and sales.) Given 
the extraordinary levels of poverty in the north and its widespread 
rates of illiteracy, we can understand why dissidents within the north 
often choose to affiliate with Islamist movements that claim that they 
will improve the living standards of the poor by establishing a more 
just and transparent government that would be ruled by Islamic law. 
According to some analyses no more than 40 percent of males in northern 
Nigeria are literate while female literacy hovers around 20 percent. 
These figures contrast with Nigeria's south where the literacy rate for 
males is approximately 74 percent while the rate for women is between 
55 to 60 percent. Professor Ibrahim Gambari, Special Advisor to the 
United Nations Secretary General, recently disclosed vast disparities 
regarding the education of girls in Nigeria. He said that while 85 
percent of girls were being educated in the southeastern and 
southwestern regions of the country, school enrollment rates for girls 
in the northeast were 20 percent while in the northwest they were 25 
percent.\9\ Jobs simply cannot be created with such high levels of 
illiteracy and under-enrollment of children in schools. Going forward 
with our security analysis we will need to recognize that northern 
Nigeria's poverty is extreme and structural and that this impediment 
will have to be addressed if we are to deal with the security threat 
being created by Boko Haram and its possible alliance with its larger 
and more effective affiliate AQIM. A comprehensive security analysis of 
both Nigeria and the Sahelian region is in order because it is both 
clear and predictable that it is within the Sahel and also the Horn of 
Africa and the Arabian peninsula that al-Qaeda and its affiliates hope 
to expand their operations.
---------------------------------------------------------------------------
    \9\ Emma Ujah & Luka Binniyat, ``Northern Nigeria Has World Highest 
Illiterate--World Bank'', www.thenigerianvoice.com/nvnews/53569/1/
northern-nigeria-has-world-highest-illiterate-worl.html, accessed 24 
November 2011.
---------------------------------------------------------------------------
    Thank you, Mr. Chairman and distinguished Members of the 
subcommittee.

    Mr. Meehan. Thank you, Dr. Laremont. But please recognize 
as well your written testimony is fully part of the record, and 
available not just for us to review, but for those who follow 
the important testimony of this hearing. I thank you for that.
    Mr. Meehan. Ms. Cooke.

   STATEMENT OF JENNIFER G. COOKE, DIRECTOR, AFRICA PROGRAM, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Ms. Cooke. Yes. Thank you, Chairman, Ranking Member Speier, 
and distinguished Members. My colleagues have covered a lot of 
ground, so I thought I would limit my remarks to just a few 
points on Boko Haram and offer some thoughts on implications 
for U.S. policy. First, since the death of founder Mohammed 
Yusuf, the group's structure is fractured and evolving. 
Although the overall structure is nebulous, observers point to 
the emergence of three main groups, a religiously ideological 
element, a more politically oriented faction funded by state 
and national political figures, and a more opportunistic which 
uses the Boko Haram brand as a cover for criminal activity.
    These divisions within Boko Haram are not always clear-cut, 
and the group's leadership will often issue conflicting and 
competing public messages. Second point is the possibility for 
dialogue and negotiation remains on the table. There is some 
suggestion that elements of Boko Haram remain open to this 
possibility. Nigerian President Jonathan has indicated that he 
might be willing to engage. That is a position encouraged by 
Borno state government, by local traditional authorities, and, 
according to a recent national poll, by the majority of 
Nigerians. Third, although its methods at present are rejected 
by most northerners, Boko Haram is a product of deepening 
economic decline and growing political alienation in the north. 
My colleagues have mentioned this.
    The traditional mainstays of Nigeria's northern economy, 
agriculture, textiles, manufacturing, have collapsed since the 
advent of the oil economy. Unemployment, indicators in health, 
education, sanitation, are among the worst in the country. The 
violent response to President Jonathan's reelection in 2011 
reflected the perception of northerners that they are the 
losers in the zero sum game of Nigerian politics.
    My fourth and final point is that Boko Haram does not, at 
present, enjoy broad community support in the areas in which it 
operates. This is an important advantage and opportunity in 
crafting an effective national and international response. It 
is an advantage that the Nigerian government and its partners 
should do their utmost to preserve. Heavy-handed security and 
counterterror tactics risk alienating a potentially vital 
source of cooperation and intelligence. That is the 
communities.
    So, and this is very abbreviated, what are the implications 
for U.S. policy? First and foremost, the U.S. approach should 
be nuanced and low-key, being careful to avoid actions that 
escalate the crisis, alienate communities, and limit options 
for negotiation. Diplomatically, the United States should press 
the Nigerian government to articulate a national security 
strategy--it has not done so yet--that commits the government 
to a comprehensive, balanced approach that can help guide 
Nigerian agencies and international partners. Second, because 
Boko Haram's leadership and structure do appear to be 
fractured, the United States should be very careful and give 
very careful consideration to potential consequences of 
designating the group as a foreign terrorist organization. In 
the short term, the designation risks further radicalizing Boko 
Haram, lending a coherence to a group that already appears to 
be fracturing, and narrowing the opportunity for dialogue and 
negotiation, which as I said, is still possible with some 
elements of the group.
    Third, the United States should seek ways to engage more 
fully and meaningfully with the communities in northern 
Nigeria, particularly in northeastern states of Borno and Yobe. 
As a first step, the State Department's Bureau of Conflict and 
Stabilization might undertake an in-depth assessment to better 
gauge northern priorities, northern community priorities in 
development, economic growth, security, conflict mitigation, 
and identify areas of opportunity for U.S. engagement.
    Finally, in responding to Boko Haram, the United States 
should limit its security engagement to strengthening Nigerian 
intelligence capacities, advising on civilian protection 
measures, promoting community engagement, and encouraging 
professionalism, restraint, and accountability. More direct 
engagement risks association with intrusive and deeply 
unpopular security responses to Boko Haram and creates a 
perception that the United States is powering the federal 
government to take coercive action against northerners.
    In the longer term, I have a few suggestions. The United 
States have a greater focus on West African cooperation. On 
security and counterterrorism, it is doing this. It will need 
to expand that in the future. Consider broadening diplomatic 
presence in Nigeria's north. For example, the suggestion of a 
consulate in the state of Kano has been raised before as a 
means of engaging local, state leaders, civil society, 
religious leaders.
    Then finally, encouraging the Nigerian government in a 
longer-term strategy of economic revitalization in the north. 
Seeking opportunities for foreign direct investment, 
infrastructure enhancement, investment in agriculture 
productivity and processing, employment, and incentives to 
state governments and local governments for good governance. I 
know this isn't really within this subcommittee's purview, but 
it is important, I think, to have your voices at the table in 
pushing for that comprehensive approach to dealing with Boko 
Haram at its source. Thank you very much, and I am happy to 
take your questions.
    [The statement of Ms. Cooke follows:]

                Prepared Statement of Jennifer G. Cooke
                           November 30, 2011

    Chairman Meehan, Ranking Member Speier, and distinguished Members 
of the House subcommittee, I'd like to thank you for the opportunity to 
testify today on Boko Haram.\1\ I will limit my remarks to a few brief 
points on Boko Haram's evolution and the context in which it operates 
and offer some thoughts on implications for U.S. engagement.
---------------------------------------------------------------------------
    \1\ Boko Haram, meaning ``Western education is a sin,'' is the 
colloquial name given to the group which formally calls itself Jama'atu 
Ahlis Sunna Lidda'awati wal Jihad (``People Committed to the 
Propagation of the Prophet's Teachings and Jihad,'' in Arabic). At its 
inception, the group was also locally known as the Nigerian Taliban.
---------------------------------------------------------------------------
    Established in 2002, Boko Haram's initial incarnation was as a 
fairly narrow, insulated sect operating in the remote northeast corner 
of Nigeria in the Borno state capital of Maiduguri. Its founding leader 
Muhammed Yussuf called for a rejection of the corrupting influence of 
western culture and state authority and of traditional religious 
authorities who were seen as degenerate collaborators in a 
fundamentally immoral government system. The group drew its adherents 
largely from disaffected university students and unemployed youth, with 
few prospects of economic opportunity or social advancement. Boko Haram 
is not the first group to violently oppose secular and religious 
authority structures in northern Nigeria, but its expanding array of 
targets and gradual adoption of modern terror tactics is a new and 
deeply alarming turn, setting a dangerous precedent for potential 
successor groups that may arise from among Nigeria's politically 
alienated, economically marginalized, and largely youthful northern 
populations.
    The suicide attacks on U.N. headquarters in Abuja on August 26, 
2011, propelled the group to international notoriety. But they also 
revealed a Nigerian federal administration wholly unprepared to deal 
with the escalating threat in a coherent, strategic, and calibrated 
way. Coming on the heels of the April 2011 post-election crisis that 
left some 800 northerners dead, the attacks further underscored the 
failure of successive Nigerian administrations to bridge the growing 
economic and political rift between the country's north and south. Boko 
Haram is simply one manifestation of the profound failure of successive 
Nigerian governments to curb corruption, deliver public services, 
generate economic opportunity, establish accountable security 
institutions, and engage communities in both the north and south in a 
more fully national polity.
    The Nigerian government's response to Boko Haram will need to be 
integrated into a comprehensive political, economic, and security 
strategy that offers some promise of real improvement to northern 
populations and communities and limits the appeal of Boko Haram and its 
potential successors. The United States would do well to avoid any 
association with ham-handed, short-sighted security responses emanating 
from Abuja and instead press the government to plan and pursue a 
comprehensive and strategic approach with urgency and commitment.
    The core aims of Boko Haram appear at present to remain limited to 
the Nigerian domestic scene, even though western targets within Nigeria 
will appeal because of their visibility and political impact. There is 
the possibility of greater collusion with al-Qaeda in the Maghreb, with 
reports of members training with AQIM in Mauritania and Mali and 
possible sharing of information on tactics and technologies. But there 
is little sign at present, apart from an occasional rhetorical 
flourish, of any global or even regional ambitions on the part of Boko 
Haram leadership.
    Boko Haram poses little immediate threat to the U.S. homeland, 
although U.S. citizens and assets in Nigeria may well be vulnerable as 
the group seeks high-profile, high-impact targets. The more imminent 
threat is a fundamentally destabilizing crisis within Nigeria, which as 
an important energy supplier, security partner, and regional and 
continental powerhouse, is one of the United States' most strategically 
important allies in Africa.
    Some points to keep in mind:

                  BOKO HARAM IS FRACTURED AND EVOLVING

    The group's fluidity and seemingly divided leadership will pose an 
intelligence challenge but may also offer opportunities to ``peel 
away'' individuals or factions and isolate more purely criminal or 
recalcitrant elements.
    The killing of founder Mohammed Yussuf while in police custody in 
July 2009 marked something of a turning point for the movement. Along 
with an escalation of tactics and an expanding range of targets, the 
vacuum left by Yussuf has led to an apparent fracturing of its 
leadership and coherence. There remains a great deal that is unknown 
about Boko Haram's inner workings; nonetheless, observers point to the 
emergence of three main groups: The first is a more religiously 
ideological hard-core element, led by Abubakar Shakau, a close 
associate of Yussuf. Despite this faction's ideological bent, some 
observers suggest that Shakau may be open to a negotiated settlement 
with federal authorities.
    A second faction is thought to derive support from state and 
national political figures whose ambition is to undermine local 
authorities, or reveal President Goodluck Jonathan as weak and 
ineffective, possibly precipitating a recall by ruling party leadership 
or at the very least assuring the return of the presidency to the north 
in the country's next national election.
    Finally, observers point to a more opportunistic grouping, which 
many allege simply uses the Boko Haram brand and associated insecurity 
as cover for criminal activity and self-enrichment. This group may draw 
inspiration from the money-making tactics and kidnap-for-ransom 
operations by militants in the Niger Delta or Al-Qaeda in the Maghreb 
affiliates in the Sahel. These divisions within Boko Haram are not 
always clear-cut, and the group's ``leadership'' will often issue 
conflicting public messages.

    A POSSIBILITY FOR DIALOGUE AND NEGOTIATION REMAINS ON THE TABLE

    There is some suggestion, as noted above, that Abubakar Shakau 
remains open to the possibility of dialogue and negotiation. Nigerian 
President Goodluck Jonathan has indicated that he is open to dialogue, 
although his enthusiasm may be waning. A presidentially-appointed panel 
concluded in September 2011 that ``the federal government should 
fundamentally consider the option of dialogue and negotiation which 
should be contingent upon the renunciation of all forms of violence and 
surrender of arms to be followed by rehabilitation.'' Borno State 
governor Kashim Shettima has reiterated the call for ``sincere 
dialogue,'' and a group of Borno state elders have called on President 
Jonathan to initiate engagement. A national opinion poll by the 
Nigerian CLEEN Foundation indicates that 58 percent of Nigerians 
support dialogue (80 percent in the northeast region most affected).
    The group's demands range from the improbable--including full 
implementation of Shari'a in northern Nigeria (with some adherents 
advocating Shari'a for all of Nigeria), to the more plausible--
including full accountability for police and security forces involved 
in the extra-judicial killing of Yussuf and the associated violence 
that left 700 dead; public access to a former national security 
adviser's investigation and report on the 2009 crackdown; the release 
of imprisoned Boko Haram members; and the rebuilding of mosques and 
other buildings destroyed by security forces.
    Any strategy to engage Boko Haram--whether negotiations, pay-offs, 
or amnesty offers--will have inherent risks. Negotiations with one 
element of Boko Haram may cause further splintering or hardening among 
other factions. Pay-offs set a dangerous precedent in creating 
incentives for other actors to take up arms, and broad amnesty offers 
may create a culture of impunity that leaves victims without recourse 
to justice. But while Boko Haram remains a relatively new grouping and 
its leadership and structure in flux, there may be opportunities to 
peel off factions and leaders more amenable to negotiation and isolate 
less intractable factions. Dialogue is worth pursuing, and compromise 
on objectively reasonable demands, such as police accountability and 
community reconstruction warrants testing.
boko haram is one manifestation of growing alienation in the north that 

               MUST BE ADDRESSED IN A LONG-TERM RESPONSE

    Although its methods are at present rejected by most northerners, 
Boko Haram is a product of deepening economic decline and growing 
political alienation in the north. This decline has seen a loss of 
respect for state and local authorities who have failed to deliver even 
the most basic services to their constituents, and to some extent an 
erosion of traditional religious authorities who are often perceived to 
be in collusion with a corrupt political establishment.
    The greatest axis of division and resentment is the growing 
economic disparity between the northern Nigeria and the wealthier south 
and the perception that southern political elites have ignored the 
interests and priorities of northern populations. Many northerners felt 
it was ``their'' turn at the presidency in 2011, since the late 
President Yar'Adua failed to serve his full term. The violent response 
to President Jonathan's victory reflected the perception of northerners 
that they are the losers in the zero-sum game of Nigerian politics.
    The traditional mainstays of Nigeria's northern economy--
agriculture, textiles, manufacturing--have collapsed since independence 
as successive governments (of both northern and southern origin) 
focused exclusively on the lucrative oil sector. Unemployment in some 
northern states is estimated at 90 percent, and indicators in health, 
education, and sanitation are among the lowest in the country. Poverty 
alleviation and development efforts have largely bypassed the north, 
focusing instead on the volatile Niger Delta region, where militant 
groups have threatened international companies and the global oil 
supply.
    Failure to address these fundamental vulnerabilities may ultimately 
lead Boko Haram and potential successors to make common cause with 
growing segments of Nigeria's northern population. An accumulation and 
convergence of grievances with combined with an escalation of violent 
confrontation and terror tactics could prove a profoundly destabilizing 
to the Nigerian state. Reversing the north's long-standing economic 
decline and bridging the north-south divide will constitute a long-term 
endeavor, but it is one that should begin immediately and with urgency.

           BOKO HARAM DOES NOT ENJOY BROAD COMMUNITY SUPPORT

    At present, Boko Haram enjoys little support in the communities in 
which it operates, and this is perhaps the greatest advantage and 
opportunity in crafting an effective national and international 
response. It is an advantage that the Nigerian government should do its 
utmost to preserve.
    Unlike militant groups in the oil-producing Niger Delta, Boko Haram 
has not presented itself primarily as an interlocutor for poor and 
disenfranchised northern populations. Although its adherents are 
influenced by the same political and socioeconomic factors that have 
led to a widespread sense of alienation and resentment among northern 
populations, the group's political/religious agenda and demands have 
had little resonance across the north. Thousands have fled the towns in 
which Boko Haram has launched its attacks, and local community members 
have been intimidated by assassinations of clerics who disagree with 
the group's preachings or individuals suspected of collaborating with 
security forces.
    The Nigerian government should seek to capitalize on this lack of 
popular support for Boko Haram and engage the communities that 
ultimately will need to be part of a comprehensive solution. Instead, 
however, the government's heavy-handed and overwhelmingly security-
focused response have led to further alienation and deepening distrust. 
A major Joint Task Force deployment (of military and police personnel) 
to Borno in summer 2011 inflamed tensions, with widespread accusations 
of arbitrary arrests, extra-judicial killings, torture, and 
intimidation. Police corruption and abuse has become one of the 
defining grievances of Boko Haram and one that is very likely to 
resonate with communities in the north (and nationally). The federal 
structure of Nigeria's police means that officers are usually not from 
the areas to which they are deployed, have little empathy with, or 
understanding of, local communities, and generally have adversarial 
relations with local populations.

          THE NIGERIAN GOVERNMENT'S STRATEGY IS NOT YET CLEAR

    Ultimately, for better or worse, the onus of responding to Boko 
Haram rests with the Nigerian government. There is considerable concern 
that the government may lack the capacity and political will to mount 
an effective, comprehensive response. The most visible response to date 
has been an overweening security presence in the north that has 
antagonized and intimidated local populations. At present, there appear 
to be divisions within the federal government on how best to engage 
with Boko Haram; little coordination, communication, or intelligence 
sharing among the government's multiple security agencies; suggestions 
of a potential free-for-all with private security firms bidding for 
government contracts; and no clearly articulated national strategy or 
security framework to guide a comprehensive response. President 
Jonathan has promised that ``with the renewed vigour [sic] by Nigeria's 
security agencies to curb the menace of Boko Haram, the existence of 
the group in the shores of Nigeria will soon be history.'' But this 
claim holds little promise for a nuanced, calibrated response that 
engages communities or addresses urgent long-term vulnerabilities.

               WHAT ARE THE IMPLICATIONS FOR U.S. POLICY?

    What do these various factors mean for U.S. policy? First and 
foremost, the U.S. approach should be nuanced and low-key, being 
careful to avoid actions that escalate the crisis, alienate 
communities, and limit options for negotiation.
    In the short term:
  <bullet> Diplomatically, the United States must press and encourage 
        the Nigerian government to formulate and articulate a national 
        security strategy that commits the government to comprehensive, 
        balanced approach and can help guide a more coordinate and 
        effective national and international response.
  <bullet> Because Boko Haram's leadership and structure appear to be 
        fluid and fracturing, with some elements open to the 
        possibility of dialogue, the United States should give careful 
        consideration to the potential consequences of officially 
        designating the group as a foreign terrorist organization. In 
        the short term, the designation risks further radicalizing Boko 
        Haram, lending coherence to a group that appears to be 
        fractured, and narrowing the opportunity for dialogue and 
        negotiation, which the majority of Nigerians, particularly in 
        areas most affected by Boko Haram, appear to support.
  <bullet> The United States should seek ways to engage more fully and 
        meaningfully with communities in northern Nigeria, particularly 
        in the northeastern states of Borno and Yobe. As a first step, 
        the State Department's Bureau of Conflict and Stabilization 
        Operations might consider working with the U.S. Embassy in 
        Abuja, the Nigerian government, and nongovernmental 
        organizations to better gauge northern community priorities in 
        development, economic growth, security, and conflict mitigation 
        to identify areas of opportunity and help guide a longer-term 
        U.S. (and possibly Nigerian) interagency response.
  <bullet> The United States Government should consider working with 
        the Nigerian federal government and northern state governments, 
        to devise quick-impact projects that give some sense of renewed 
        government engagement on local needs and development 
        priorities, whether in infrastructure, construction, 
        sanitation, health. The purpose would be to win some short-term 
        good will from local communities and leaders, although they 
        should not be viewed as substitutes for longer-term investments 
        in sustainable development.
  <bullet> In responding to Boko Haram, the United States should limit 
        its security engagement to strengthening Nigerian intelligence 
        capacities; advising on civilian protection measures; promoting 
        community engagement; and encouraging professionalism, 
        restraint, and accountability. More direct engagement risks 
        association with intrusive and deeply unpopular security 
        responses to Boko Haram and creates a perception that the 
        United States is empowering the federal government to take 
        coercive action against northerners.
    In the longer-term:
  <bullet> The United States should consider opening a U.S. consulate 
        in the northern Nigeria to expand contact and engagement with 
        state and local government leaders, civil society, business 
        leaders, and ordinary citizens. Establishment of a consulate in 
        Kano has been under consideration for some time: The 2011 post-
        election crisis in the north and the rise of the Boko Haram 
        phenomenon warrant greater diplomatic engagement, not 
        withdrawal.
  <bullet> The United States should encourage the Nigerian government 
        in a longer-term strategy of economic revitalization in the 
        north, seeking opportunities for foreign direct investment, 
        infrastructure enhancement, investment in agricultural 
        productivity and processing, employment generation, and 
        offering incentive programs to state and local governments that 
        make good faith investments in development, social service 
        delivery, and transparency. In a country the size of Nigeria, 
        the administration might consider devising a Millennium 
        Challenge Account model that could operate at a sub-national 
        level to incentivize and reward good governance and unlock 
        economic potential.
  <bullet> The United States should continue to strengthen regional 
        security cooperation and intelligence sharing within ECOWAS 
        (the Economic Community of West African States) and the states 
        of the Maghreb to improve capacities to monitor and interdict 
        flows of arms and personnel and to track possible links among 
        criminal or terrorist networks.

    Mr. Meehan. Well, I want to thank each of the panelists for 
your testimony. I appreciate the need to try to take such a 
complex issue and simplify it is--we need that for time 
constraints, but this is the opportunity for us, as we ask 
questions, to develop the essence of your points, I think, a 
little bit each.
    So at this point in time the Chair will recognize himself 
for 5 minutes of questioning. The testimony that I was able to 
review from each of you was compelling. A common theme I see, 
of course, is the recognition of Nigeria's importance 
throughout the entire African region, and the fact that it 
really is a critical state not only in relations with the 
United States, but with respect to the integrity of an economy 
of the entire continent. There also appears to be an 
appreciation for a great amount of opportunity in those regions 
because of the unsettled nature of many of those and the 
metastasization of al-Qaeda, which they are looking for places 
to be able to spread their interests.
    Does this create a fertile area? We are trying to assess 
how that dynamic may create a threat here to the United States 
homeland. But of course, in addition to the United States' 
interests. Dr. Laremont, I was struck by your written testimony 
in which you talk about the issue of destabilization in West 
Africa, its pivotal role, as I have said, but the need for this 
issue of Boko Haram and its association with AQIM to be dealt 
with now, while it is in its earliest stages, because there is 
what--before a weak and inconclusive link becomes real and 
dangerous. The panel did a very good job, I think, of 
identifying this dramatic transformation that has taken place. 
Dr. Pham, those were your words in your testimony, written 
testimony, I think a dramatic transformation that we have seen 
of Boko Haram in just a very short period. We have seen the 
ability for them to not only reach against Nigerian targets, 
but against outposts of western culture as well.
    The panelists have identified the tactical and functional 
upgrade of its capabilities. Panelists have also talked about 
the expansion of its tactics, including sophisticated vehicle-
borne IEDs and the use of suicide bombers. Panelists have 
talked about the expansion of their territorial reach beyond 
the north now down into Abuja, hitting soft targets. The 
panelists have talked about the choice of target, the 
identification of the United Nations offices, not just strictly 
a Nigerian place. The panelists have talked about the 
connections with the existing al-Qaeda-affiliated 
organizations, particularly the Islamic Maghreb among them.
    We have identified that there may be splits going on 
simultaneously. An awful lot of dynamics. Those are some of the 
signals that we seemed to miss when we earlier evaluated TTP, 
we earlier evaluated the al-Qaeda influence in Yemen. Both of 
them ended up with strikes against the United States. So what 
we are really asking today is, and I am going to ask each of 
the panelists, does the Boko Haram leadership, in their intent 
to unify with al-Qaeda or others, have any intent or capability 
to cause harm to the people of the United States either here or 
abroad? That is the fundamental question we are trying to ask.
    There is a lot more to it to be sure, and a lot of other 
follow-up, but a sense, what is your sense of whether or not 
Boko Haram creates a threat to the United States? Dr. Pham, let 
me begin with you.
    Mr. Pham. Thank you, Mr. Chairman. Does it have the intent? 
I think it is evolving very quickly in that direction. We have 
gotten signals, most recently in the pronouncements of Abubakar 
Shekau, where he links the jihad that he is fighting with a 
transnational global jihad, salutes in fact the so-called 
martyrs in Iraq who were targeting U.S. troops there. So the 
aspiration is there. As this transformation of its 
capabilities, if the opportunity presents itself, I think they 
would seize upon it. It would certainly raise their stature 
within the terrorist networks in which they are trying to link 
up with. So if the opportunity presents itself, I think they 
will use it accordingly.
    Mr. Meehan. Ms. Ploch.
    Ms. Ploch. Thank you. I think Dr. Pham raises several very 
valid points. I want to caution when we talk about Boko Haram 
as a group and its intent that there are likely several 
intents. He mentioned Shekau's statements, clearly indicating 
some inspiration, aspiration to target U.S. and western 
interests. I think those should be taken with extreme 
seriousness. I don't see currently from reporting that the 
larger Boko Haram following intends to target the United States 
or U.S. interests. Notable, though, is AQIM's regular practice 
of kidnapping of western targets. Back in May, we had the 
targeting of a British and an Italian citizen from northern 
Nigeria. Their whereabouts are debated right now, but some 
indications they may still be in northern Nigeria. We don't 
know whether Boko Haram was responsible for that kidnapping or 
not, but we do need to be very concerned about U.S. citizens in 
northern Nigeria and the potential they may be kidnapped by 
AQIM, Boko Haram, or others.
    Mr. Meehan. Thank you. Dr. Laremont.
    Mr. Laremont. Chairman Speier and other Members of the 
committee, I think, with all respect, it may not be a question 
of looking for a smoking gun, we have found a document that 
indicates that, you know, we, Boko Haram, intend to attack the 
United States or its interests in Europe, et cetera, et cetera. 
I don't think that is really the right way of looking at this 
particular question.
    I think you have to think about what is the right question 
to ask? All right. I think the right question to ask is: What 
is the operational space and where are we at this moment in 
time? The operational space that we are considering, whether we 
are talking about Boko Haram or we are talking about Al-
Shabaab, or we are talking about AQIM, is an operational space 
in which there is not governmental capacity. AQ always operates 
in spaces where there isn't governmental capacity. That is why 
they went to the frontier region of Afghanistan and Pakistan. 
That is why they are redeploying to Somalia and Yemen, and why 
they are redeploying to the Sahel.
    So that is the first question to ask. You are not looking 
for a smoking gun. What is the operational space? The second 
and most important thing for this committee to consider is the 
moment in historical time. This is 2011. This is a 
revolutionary year. This is a year similar to the Iranian 
revolution in 1979. It is similar to the revolutions of 1968. 
It is similar to the Russian revolution of 1917 and the 
European revolutions of 1848. This is a revolutionary moment, 
which has transformed North Africa in terms of how we need to 
position ourselves with regard to emerging governments in North 
Africa. It also requires us to realize that because it is a 
revolutionary time, we need to think about this space called 
the Sahel in a different way than we have considered it in the 
past. Once we do that, once we recognize those two key factors, 
then we can proceed with our analysis of what is in the 
security interests of the United States? But unless you frame 
the question properly, and unless you understand the historical 
moment, and if you are looking for a smoking gun then you are 
not going to get the right answers.
    So that is what I would propose to the committee, you have 
to understand the space. We have understood that before. AQ 
always goes into spaces----
    Mr. Meehan. Dr. Laremont, let me do this. I want to follow 
up with some questions on that. But let me get Ms. Cooke, 
because I have to be careful about my minutes. I need to get to 
my colleagues. But I will follow up with that. Thanks.
    Ms. Cooke. My sense at present is that Boko Haram poses 
little imminent threat to the U.S. homeland, although I do 
think U.S. citizens and assets in Nigeria may well be 
vulnerable. As the group seeks high-profile, high-impact 
targets, and the U.N. building was a step up from local police 
units or even the police headquarters in terms of garnering 
Nigeria's national attention. Nigerians, unfortunately, are 
fairly inured to fairly high levels of political violence. You 
have hundreds and hundreds of people killed in the post-
election violence. You know, the country does go on. I think, 
you know, that is one of the troubling aspects of Nigeria. But 
I think hitting an international institution garnered very 
quick attention. I think the core aims of Boko Haram, despite 
occasional rhetorical flourishes, remain centered on limited to 
Nigerian domestic politics. There is growing evidence of ties 
from local politicians who are trying to make Goodluck Jonathan 
look ineffective or undermine local government authorities.
    So obviously, the possibilities are always there. I guess 
it is your task to gauge the plausibility of that. The 
possibility is there. The plausibility is perhaps much less 
than the possibility. You do have lone wolves like the 
underpants bomber, Umar, I am sorry--that is the wrong phrase--
who did not grow up in Boko Haram. He was raised mostly in 
England, trained in Yemen, and so forth. There is always going 
to be the potential of that kind of alienated young person 
isolated who falls prey to influences, whether external, and so 
forth. But Boko Haram as a unit seeking to launch targets 
against the United States at this time, I think that is 
minimal.
    Mr. Meehan. Thank you. I now turn to the Ranking Member, 
Ms. Speier, for her questions.
    Ms. Speier. Thank you, Mr. Chairman. Thank you, each of 
you, for really a very thoughtful discussion on this issue. I 
really very much appreciate it. At the outset let me say that 
after my questioning, I am going to have to leave because I 
have a bill up in another committee that I really must attend 
to. But I want to try and get my arms around this, which is, I 
think, a little hard to do. I don't think we pay enough 
attention to Africa as a hotbed of concern that we should.
    I think the fact that in Nigeria right now, we have a very 
young population. The Pew study, poll, showed that only 38 
percent of Nigeria's 75 million Muslims have a favorable view 
of the United States compared to 90 percent of the Nigerian 
Christians. All of you touched on the fact that northern 
Nigeria is impoverished, that agriculture has been left fallow, 
that the poverty may be, in many respects, fueling 
organizations like Boko Haram. I guess my question to you is, 
one: How large do we think Boko Haram is in numbers? How are 
they financed? Are we best served by engaging in northern 
Nigeria in a way where we are helping the country, the young 
with employment opportunities and educational opportunities to 
somehow bridge the gap that exists in terms of how they 
perceive the United States?
    So if I could just have you answer those three or four 
questions as you feel that you can. Dr. Pham, would you like to 
begin?
    Mr. Pham. Thank you, Representative Speier. How large of a 
group, I think the consensus of most analysts is probably a 
core group of no more than several hundred, but a wider 
community of support, which leads to the financing question. 
Just last week, the Nigerian government arrested a sitting 
senator from the ruling party, the PDP, accusing him of having 
ties and financing with Boko Haram. Whether the accusation is 
true or not, we leave to the judicial process. But it does ring 
true that certain elements of northern political elites have 
tried to hijack the alienation, the sentiments of the youth 
population and the general population for their creating a 
perpetual crisis for their own political ends. So I have no 
doubt that there is some financing there. As well as from 
other--the Sahel, as Dr. Laremont's point, the space is full of 
all sorts of financing opportunities, from drug running to 
protection to narcotraffickers, we have seen AQIM engage in 
both, to even hiring out of mercenaries from various 
disaffected groups. AQIM has contracted out kidnappings to 
mercenaries or to Polisario fighters.
    So there is all sorts of financing opportunities. As for 
U.S. engagement, I would say we have to be very careful on our 
CT, counterterrorism engagement, to not look like we are 
driving the Nigerian Government. But on development and those 
other issues, certainly I think there is a role to be played. 
We have talked for more than a decade about getting a U.S. 
diplomatic presence up and running in northern Nigeria. For a 
variety of security concerns, as well as budgetary concerns, 
that has never taken place. So we have an embassy in Abuja, we 
have a diplomatic presence in the largely Christian south, but 
we have nothing in the north.
    Ms. Speier. Thank you. Ms. Ploch.
    Ms. Ploch. Thank you. I think Dr. Pham has covered the 
financing issue fairly well. I would also add that a number of 
bank robberies have been attributed to the group. Some of these 
may be the acts of other criminal gangs that the Nigerian 
security forces are claiming are Boko Haram. But it would 
provide some financing opportunity. On the issue of the U.S. 
Government response in northern Nigeria to underdevelopment, 
the U.S. Government provides about $600 million a year to 
Nigeria in foreign assistance. Of course that is nationally, 
and a lot of it is focused on health programs. But USAID in the 
last few years has focused on two flagship programs in two 
northern states. Their attempt, with a country the size of 
Nigeria, was to really kind of maximize impact in a few places.
    So they have been working with the state governments of 
Bauchi State and Sokoto. Bauchi is in the Boko Haram-affected 
area of northeast, and Sokoto is in the northwest. They have 
been working with the local government in trying to improve 
their education and service delivery, health care programs, and 
also to build between the state and federal government some 
public-private partnerships with local businesses.
    So I think that is one area. Also in terms of U.S. 
Government responses, the U.S. Government has been working with 
Nigeria's anti-corruption authority for several years. In terms 
of forensic accounting, if, as Dr. Pham mentions, the reports 
of northern elites potentially financing elements of Boko Haram 
are true, there may be an avenue for us to expand engagement 
with the financial authorities in Nigeria to track down the 
sources of potential elite financing.
    Mr. Laremont. I concur there are several hundred militants 
within Boko Haram. What the committee needs to grasp is that 
there are many Nigerias, but there are really two Nigerias. 
There is a southern Nigeria that is substantially more wealthy 
than the north and better educated. I have spent time in 
Maiduguri, so I know it. The levels of poverty, the levels of 
illiteracy, especially among girls, is extraordinary. So that 
if we were to have an impact with regard to this question, I 
concur with Dr. Pham that escalating military collaboration 
isn't probably going to solve the problem. What we really need 
do is we need to have a greater diplomatic presence in the 
north, starting with Kano, and then with Kaduna, and then 
possibly Jos, because they are more populous. But then the 
heart of the Boko Haram question would then be Maiduguri.
    In an era of contracted resources in the United States and 
a contraction of our operations on the diplomatic front, we 
need to, as a country and as a committee, assess whether that 
is really in our interests. No one is in the north from the 
U.S. diplomatic community. Consequently, we don't know what is 
going up in the north. Just a few academicians. No one is in 
Maiduguri. I have been there. Very few people are in Kano. A 
few more in Kaduna. So how can you possibly form policy when 
you don't have any information? So if this committee is charged 
with trying to secure or obtain the security of the United 
States, we then need to assess, even in constrained financial 
circumstances, what kinds of investments on the diplomatic side 
and on the informational side we need to do to assess the 
threat. That is your job. Okay. But that is my bit of advice. 
The military not so much. Diplomatic presence doesn't exist 
outside of Abuja. The north is not--there are no consulates in 
the north. Consequently, we don't have any information.
    Ms. Speier. My time is really expiring. I would like to get 
to Ms. Cooke. Thank you, Doctor, very much.
    Ms. Cooke. Well, I don't have too much to add. I would like 
to echo Lauren Ploch's point on the forensic accounting, the 
possibility of cooperation there. It is problematic in Nigeria 
because once you run up against vested interests, those kinds 
of investigations are often blocked politically. That has 
happened in the Niger Delta. That is a diplomatic issue that we 
just have to keep pressing the Nigerian government on. 
Development in the north, absolutely. Economic revitalization 
that provides jobs, meaning, and hope for the disenfranchised 
young people there. An expanded diplomatic presence. You know, 
there are partners with whom we can engage on these things to 
better understand institutions, civil societies, universities. 
There is lots of options for people-to-people engagement as 
well that I think will be important going forward.
    Ms. Speier. Thank you.
    Mr. Meehan. Thank you, Ranking Member Speier. I appreciate 
the need to attend to other committee work. But I thank you for 
your attendance here this morning for this important part. I 
would like to turn to the questions now to the Ranking Member 
of the full committee.
    Mr. Thompson. Thank you very much, Mr. Chairman. Let me 
thank the witnesses for what I think has been very enlightening 
testimony. My takeaway is that this committee ought to be 
looking at the broader public policy questions of: How do we 
address organizational problems like the one we are talking 
about here rather than focusing on the individual group? I have 
been to Abuja. I talked to a lot of the leadership in Nigeria 
as a country. I agree with everyone here, it is a fractured 
country. But it is also one that is ripe for an entity like 
this one.
    The operational space is void in an area, bad people take 
advantage of it. So I understand that. So from my perspective, 
our committee should be saying what is it we can put in place 
so that entities like Boko Haram won't be as viable?
    Now, what I hear is rather than trying to go the 
conventional route of saying this is a terrorist organization, 
they are bad people; it might behoove us to say: Well, what are 
we doing on the diplomatic side to engage the country they 
operate in to do more so that these things don't occur? I say 
that is a problem. When I look at our foreign aid to Africa as 
a whole, and the population of Africa, it is a pittance 
compared to the rest of the world.
    So if we are serious about engaging this threat, and if the 
United Nations and other entities are our partners, we have to 
invest in it. So I am happy that our witnesses across the board 
said we have to invest in diplomatic efforts, whether it is 
consulates in the north, whether it is more USAID-type funds to 
do basic things we know that countries need and deserve.
    So I am going to give each Member to give the committee the 
public policy position on addressing organizations like Boko 
Haram not as a specific entity, but as the public policy--when 
these entities come up, what would you suggest that we do to 
address it rather than just take the quick fix and say that 
these are bad people and we need to label them? What are the 
points before you get to that labeling that we should make sure 
we have done? Dr. Pham.
    Mr. Pham. Well, thank you, Mr. Thompson. I agree with what 
you have said about the need for the investment, the need for 
the aid. If there is one thing I could ask the committee and 
really recommend to the United States Government in general, we 
need to invest in knowledge. For example, if you look at the 
strategic importance of Nigeria and Africa for our national 
interests, economic, political, humanitarian, we have very 
little information. That is even less when you look at the 
space of the Sahel. We have invested next to nothing in 
acquiring information. So we need to get information to know 
the space, and then we can begin crafting all these policies 
and specific initiatives to deal with all these issues. But we 
need to invest in acquiring that knowledge of the geopolitical 
space as such. We have had 50 or more years to do that with the 
Middle East and we still stumble. In this part of the world, we 
haven't even begun to build that base. Once we build it, then I 
think a lot can come out of that. But we need to invest in that 
knowledge. That can inform everything from intelligence to, 
when necessary, military operations, to economic policy, to 
diplomatic initiatives.
    Ms. Ploch. Thank you. I will start with the security 
response and U.S. engagement with Nigerian security forces. I 
think we have heard over and over again from Nigeria experts 
that the response has, to date, been heavy-handed, and that 
Nigerian security services are often seen more as attacking 
Boko Haram rather than protecting citizens. What happens often 
in that case is that the local citizenry feels increasingly 
disenfranchised, and quite frankly may be more likely to 
tolerate the activities of Boko Haram than the security forces. 
These door-to-door searches have reportedly been a significant 
problem.
    On the other hand, we do need to be working with the 
Nigerian security forces to enhance their border security 
capacity. I think one of the more frightening aspects of all of 
this, as we have talked about this continuum of the Sahel and 
these borders, which are not well-policed, and the idea that 
some of these Libyan weapons may be traveling south, and the 
Nigerian security forces may not be able to catch those. So 
border security is really important here. On the development 
aspects, I think we have gone into this in a fair amount of 
detail. You have a very large, young population in northern 
Nigeria with very few job prospects. When they have nothing 
else to do and there are charismatic preachers preaching a 
different line of thought, it brings some people into the fold. 
So we need to be looking at some of those development issues. 
My engagement with administration officials responsible for the 
issue of Boko Haram and Nigeria suggests that they take the 
threat very seriously and they are open to consulting with you 
on possible responses.
    Mr. Laremont. Well, as they say in church, the Lord works 
in mysterious ways. You know, because this is entirely 
unplanned, but let me make three points. The first is, in terms 
of public policy initiatives, would be to increase the 
diplomatic presence in the north, first in Kano, second in 
Kaduna, third in Jos, and fourth in Maiduguri. That is in 
declining level of population. If you don't have a diplomatic 
presence in the north, that is where you begin. First Kano, 
then Kaduna, then Jos, then Maiduguri.
    I say the Lord works in mysterious ways because Dr. Pham 
said we need information. We don't have information. Well, I 
presently have a proposal before DOD for a program to acquire 
information on the Sahel. That was entirely unplanned. But 
there are ways of acquiring information about threats in this 
area in a cost-effective way. Third, if you really want to make 
an impact in terms of public policy, I would focus on two 
things in the longer term, and this would implicate USAID and 
other agencies, would be to focus on fertility and literacy. 
When you look at how violence declines over time in a variety 
of cases across the world, it is as fertility decreases to 2.0, 
2.1 or 1.8 per child, then the demographic pressures on the 
economy simultaneously decrease. So if we were to think cost-
effectively about moving forward, focus on fertility.
    The second thing is not focus on economics, but maybe even 
before economics is the question of literacy. You cannot have 
economic growth in the north when 20 percent of the women in 
the north are literate and 80 percent are illiterate. So the 
third public policy takeaway would be to focus on fertility and 
literacy.
    Ms. Cooke. Yeah, I think understanding the context and the 
dynamics at play is something that we have not always been 
particularly good at in complicated places like Somalia, for 
example. So things that we do for a short-term purpose have 
unintended consequences and backlash. I think we have to be 
very careful about that in places like northern Nigeria, where 
we haven't had a lot of long-term partnerships, intelligence, 
and kind of community engagement. So kind of slapping labels, 
you know, on fundamentalists, you know, these kind of things 
create backlash that we don't intend, but can complicate our 
engagement.
    So avoiding the good guy-bad guy dichotomy, in Nigeria, in 
particular, you know, these communities do have real, real 
grievances with their local, their state government, and the 
central government, and have seen a steady decline since 
independence of the economy, while the south grows. So there is 
something real there that we have to acknowledge and focus on. 
Engaging the communities, as I have said, I think it is 
extremely important. Working with security forces on a kind of 
a nuanced professional approach.
    The Nigerian police have become--one of Boko Haram's core 
grievances is against the unprofessionalism and police abuse. 
That is something that all Nigerians complain about, and 
something that the Nigerian Government has to take more 
seriously. We don't do a lot in terms of helping governments 
with police reform. I think it is an area we need do more of, 
particularly in an era of counterterrorism, drug trafficking, 
where the police are often the closest to the communities, but 
the least well-equipped security force to deal with those kind 
of challenges in an effective way.
    Then obviously, to embed our security engagement, which you 
wish to promote in nuanced, calibrated approaches, within a 
broader political and economic strategy. I have talked a little 
bit about revitalizing the economies. Perhaps our greatest 
counterterror tool is to create job opportunities in the 
northern Nigeria over the longer term. So I will end there.
    Mr. Meehan. Thank you for your thoughts. I would like to do 
one more question for the group myself personally. I think you 
have developed the picture of a complex region. We appreciate 
the challenges that are associated with the poverty, lack of 
education, and the opportunity that creates. How do we 
reconcile the need to try to address those as a world to 
approach those problems and challenges with the recognition 
that to some extent we have this exploitation of that by AQIM, 
coupled with this potential presence of new weaponry from 
Libya, so that we--how do we find the balance of sort of in 
effect not accusing before the act, but not sitting back and 
missing the potential that those weapons get used, groups get 
radicalized, and they act out in the manner that al-Qaeda has 
acted out by taking advantage of some of these same factors in 
other parts of the world?
    There may be a difference here between people acting out of 
poverty versus those like we see in the Middle East who are 
saying they don't want any American presence, they are trying 
to get rid of. But do we have to be concerned about the threat 
while we are trying to determine whether there is ways that we 
can help Nigeria develop itself into an economy and a 
government that can sustain itself on its own merits?
    Let me start with you, Ms. Cooke, and we will go the 
opposite direction, because you always have to wait for 
everybody else.
    Ms. Cooke. No, then I have to say something original. Yeah, 
I mean, I think we have to understand that you can't do 
security or development in a vacuum. You do have to do both. 
But I think you have to recognize that unless that security 
response, or the development response is given adequate weight, 
you are going to have to come back again and again to do the 
security capacity-building and so forth.
    Mr. Meehan. Do you think it is a mistake for us to identify 
this group, Boko Haram, as a foreign terrorist organization?
    Ms. Cooke. Well, as I said in my testimony, just that 
formal label might not get us very far in terms of what we gain 
from it. But because the group is in flux, it may then create 
kind of a hardening of lines, create a coherence that is not 
there right now, and create some blowback that we might not 
have anticipated. While it doesn't get us--it doesn't give us 
many gains, it may have potential consequences, particularly at 
this early stage when the group is still trying to formulate 
and is fissured. That is my take on that.
    Mr. Meehan. Thank you. Dr. Laremont.
    Mr. Laremont. You know, we have been studying al-Qaeda and 
its various manifestations for 10 or 11 years now. Now we 
understand that there is a predictable game plan. That is it 
will always seek to develop itself in areas that are poorly 
governed, where there isn't a governmental presence. So if we 
know that, and now that we have 10 years of experience, we can 
predict that their next places of principal operation will be 
Somalia, Yemen, and the Sahel. Now that we have the benefit of 
those 10 years, now the question is what is it that we need do 
because we are smarter than we were 10 years ago. So we need to 
have a buy-back program for those armaments. That would 
probably take place in Libya and in Mali, and to some extent in 
Niger, because that is where the armaments are. I don't think 
they have gone as far south as Nigeria.
    Mr. Meehan. Can something like that be successful, 
appreciating the broad number of weapons that are out there? Do 
you ever get enough weapons back that you can assure that you 
are now safer?
    Mr. Laremont. You may not get them all, but you will get 
some. I was in Mali this summer and ran into some of--ran into, 
I sought them out, rebels who were moving into Libya. You know, 
they would go to work for Qadhafi for a week and make a 
thousand dollars a week. So they work for 3 weeks and they come 
home. They are not really interested in fighting, they are 
interested in getting paid. So if they have these armaments, 
some of them, not all of them, will surrender these armaments 
in a buy-back program. It won't be completely successful, but 
it will be partially successful. But going back to my original 
set of statements, if we have been studying AQ for 10, 11 years 
now, and we know their game plan, and we know that they are 
going into ungoverned spaces, from the benefit of that 
experience let's go out there and get the information so they 
don't get a chance to reassemble themselves in these less-
governed places. The third point then focuses on what elsewhere 
has been discussed is that you have this terrain of 
underdevelopment in which you have high levels of fertility and 
high levels of illiteracy. So you do the buy-back program, you 
do the informational program, and then you focus on fertility 
and literacy. I think you can make a big impact.
    Mr. Meehan. Thank you. Ms. Ploch.
    Ms. Ploch. Thank you. I am trying to figure out the best 
way to tackle this. You know, I think when we look at places 
that al-Qaeda and some of its affiliates are operating, we are 
talking about the term ``ungoverned spaces.'' Of course, 
northern Nigeria is not an ungoverned space, it is a poorly 
governed space. To tackle that, this is, as I mentioned before, 
really the Nigerian government's responsibility to deal with. I 
think most people feel that they could do better and they could 
do more. So we have a real diplomatic challenge here in the 
United States in engaging a very important partner for the 
United States Government, the Nigerian government, in a 
responsible way to push them to hold their security forces 
accountable, to hold their politicians accountable, to provide 
government services to these poor youth who may be looking for 
things to do. Basically to help delegitimize the message that 
al-Qaeda and its affiliated groups are sending out, that Boko 
Haram is sending out, that this is not an accountable 
government, that it is full of corrupt politicians who have 
been influenced and bought off by the west. So it is the 
different ways that we can find to massage that diplomatic 
relationship I think that are probably going to be key. 
Recognizing that the term ``ungoverned spaces'' and how we get 
to that with each of these various groups is important. The 
same thing in Somalia with the Somali Federal Government not 
really being able to provide enough services to its people, and 
not being able to at this point in time respond to the current 
humanitarian crisis there.
    Mr. Meehan. Thank you.
    Mr. Pham. Mr. Chairman, I just want to make two points. I 
think one is I think the subcommittee has done a great service 
by preparing the report it has prepared. Because I think one of 
the problems I have encountered repeatedly in Africa and 
studying of violence, extremism, has been biases introduced 
into the analysis which become hardened so we end up repeating 
mantras and cliches, and are blindsided when things happen.
    So I think raising the question, playing the devil's 
advocate, I think, is a very useful function. It actually 
raises our need to understand better this threat. Second point 
with regard to the designation of Boko Haram as a foreign 
terrorist organization formally under U.S. law, I think we are 
perhaps a little soon on that in the sense we need to gather a 
little more information.
    However, I think the threat of declaring it a foreign 
terrorist organization might be useful as a diplomatic tool to 
push our Nigerian friends to be more proactive and to deal with 
it, with the threat of the embarrassment of having a declared 
foreign terrorist organization operating on their soil. Once we 
acquire the additional information on the organization, 
understand better its operations, then a designation might also 
be useful because then we can target those senior officials or 
others who engage in financing it individually and 
collectively.
    So that presents us with another tool. So as a tool in the 
toolkit of broader U.S. power, U.S. diplomacy, I think it is 
something that should be left on the table and perhaps waived 
to incentivize the type of behavior we seek in greater 
cooperation.
    Mr. Meehan. I want to thank each of the members of the 
panel for your insight. Dr. Pham, thank you for categorizing it 
in that way, and your identification of really what the 
objective of the committee is. Part of the report was to begin 
to frame the question. I think hearings like this allow us to 
start framing the question and then to take it to the logical 
conclusion--not logical conclusion, to be able to ask the next 
logical questions. First, to give it the right context, and 
then to ask the questions within the context, as Dr. Laremont, 
you identified with regard to this continuum that we need to 
appreciate of this region and the appropriate way we should be 
asking questions about the environment that is in there right 
now.
    So, this has been very helpful in our continuing effort to 
try to create the baseline of understanding, which I take from 
the testimony of each of you is the importance of, and frankly 
the lack of the real knowledge that we need to have about what 
is going on in that area, to then legitimately be able to 
assess the extent to which we have a threat, so to speak, but 
to understand what the real nature of this relationship is from 
Boko Haram and the threat that we do appreciate, which is al-
Qaeda.
    So this has been a very instructive hearing, certainly from 
the perspective of those of us here in the Congress. I thank 
you for your efforts, because you are the experts who best 
understand that region to the extent that we do have knowledge. 
If there is something for a minute or two that each Member 
believes we should have as part of the record, I will invite 
you to make any kind of a closing observation if you think 
there is something that we missed or an important point that 
you think we ought to consider moving forward. But it is not 
necessary. I just, you are a very engaging and knowledgeable 
panel on an area in which admittedly we don't have enough 
understanding. So I really want to give you the opportunity to 
conclude with anything that you think we may be missing or we 
ought to further consider.
    There doesn't have to be. That gives me an opportunity for 
another long speech. I just want to express my deep 
appreciation to each and every one of you for your testimony 
and for the work that you put in preparing for this. There may 
be questions from time to time that other panelists may have, 
and I ask you if we do have those and they submit them to you, 
you do your best to try to be responsive to those for the 
record.
    The record of the hearing will be open for 10 days, which 
is customary. So without objection, the committee stands 
adjourned. Thank you.
    [Whereupon, at 11:41 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
